<html>
<title> - EAST AFRICA'S QUIET FAMINE</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                       EAST AFRICA'S QUIET FAMINE

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 28, 2017

                               __________

                           Serial No. 115-16

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]         


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______
                                 
                                 
                          U.S. GOVERNMENT PUBLISHING OFFICE                    
24-832PDF                        WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="187f6877587b6d6b6c707d7468367b777536">[email&#160;protected]</a>                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          AMI BERA, California
MO BROOKS, Alabama                   LOIS FRANKEL, Florida
PAUL COOK, California                TULSI GABBARD, Hawaii
SCOTT PERRY, Pennsylvania            JOAQUIN CASTRO, Texas
RON DeSANTIS, Florida                ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDAN F. BOYLE, Pennsylvania
TED S. YOHO, Florida                 DINA TITUS, Nevada
ADAM KINZINGER, Illinois             NORMA J. TORRES, California
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
F. JAMES SENSENBRENNER, Jr.,         ADRIANO ESPAILLAT, New York
    Wisconsin                        TED LIEU, California
ANN WAGNER, Missouri
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
MARK MEADOWS, North Carolina         KAREN BASS, California
DANIEL M. DONOVAN, Jr., New York     AMI BERA, California
F. JAMES SENSENBRENNER, Jr.,         JOAQUIN CASTRO, Texas
    Wisconsin                        THOMAS R. SUOZZI, New York
THOMAS A. GARRETT, Jr., Virginia
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Matthew Nims, Acting Director, Office of Food for Peace, 
  Bureau for Democracy, Conflict and Humanitarian Assistance, 
  U.S. Agency for International Development......................     3
Mr. Ken Isaacs, vice president, Programs and Government 
  Relations, Samaritan's Purse...................................    29
Mr. Michael Bowers, vice president, humanitarian leadership and 
  response, Mercy Corps..........................................    38
Mr. Thabani Maphosa, vice-president for food assistance, World 
  Vision International...........................................    53
Ms. Faustine Wabwire, senior foreign assistance policy advisor, 
  Bread for the World Institute..................................    64

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Matthew Nims: Prepared statement.............................     6
Mr. Ken Isaacs: Prepared statement...............................    32
Mr. Michael Bowers: Prepared statement...........................    41
Mr. Thabani Maphosa: Prepared statement..........................    56
Ms. Faustine Wabwire: Prepared statement.........................    67

                                APPENDIX

Hearing notice...................................................    86
Hearing minutes..................................................    87
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey, and chairman, Subcommittee on 
  Africa, Global Health, Global Human Rights, and International 
  Organizations:
  2017 Bread for the World Hunger Report.........................    88
  Statement of Sean Callahan of Catholic Relief Services.........    96
The Honorable Thomas A. Garrett, Jr., a Representative in 
  Congress from the Commonwealth of Virginia: Statement of the 
  Embassy of the Republic of Sudan...............................   104
Mr. Thabani Maphosa:
  World Vision East Africa Hunger Crisis Overview................   108
  World Vision Somalia Emergency Appeal..........................   109
  World Vision South Sudan Situation Report......................   110

 
                       EAST AFRICA'S QUIET FAMINE

                              ----------                              


                        TUESDAY, MARCH 28, 2017

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:30 p.m., in 
room 2200 Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The hearing will come to order.
    I will be joined momentarily by Ranking Member Bass and 
some of the other members of the subcommittee. But there are 
some votes that will be coming up on the floor so we will start 
right at 2:30.
    Thank you and welcome to each and every one of you. 
According to estimates by the United Nations, more than 28 
million people in east Africa today desperately need immediate 
food aid.
    Three countries in the region have emergency level food aid 
needs--Somalia, South Sudan, and Sudan. Meanwhile, areas of 
Ethiopia, Kenya, and Uganda also face crisis level hunger with 
some households already in emergency conditions.
    In Somalia, at least 6.2 million people need food 
assistance and that's more than half that country's population.
    In South Sudan, nearly two-thirds of the population 
requires assistance and in fact about 4.9 million South 
Sudanese, or about 40 percent of the population, face severe 
life-threatening hunger with that number expected to rise to 
5.5 million by July.
    In Sudan more than 5.8 million Sudanese are believed to 
require assistance, 3.3 million of them in still-embattled 
Darfur states.
    Unfortunately, the devastating impact of the current famine 
isn't confined to the hardest hit drought areas. Uganda itself, 
struggling with the effects of drought in some areas, has had 
to contend with nearly 800,000 refugees from South Sudan.
    By the beginning of this month as many as 3,000 South 
Sudanese a week cross the border into Uganda. Lest we get 
caught up in the huge numbers involved in this crisis, we must 
always keep in mind what those numbers actually mean for the 
people in the long-term as well as the immediate and short 
term.
    According to the U.N.'s World Food Programme, calculation's 
in January, global acute malnutrition rates for Somali children 
and pregnant and lactating women entering Ethiopia reached a 
whopping 78 percent.
    That means that Somali children in the womb won't have 
enough nourishment to complete their growth in utero. Most, if 
not all, will be born stunted, which will be made worse by 
their continuing lack of nutrition once born.
    Their mothers will be severely weakened and may not survive 
childbirth. All of them will have damaged immune systems and 
will be susceptible to diseases such as cholera or acute 
diarrhea and may die a preventable death.
    In any event, the futures of far too many children and 
their potential contributions to their society will be forever 
limited and stunting cannot be reversed.
    In 2011, the first U.N.-declared famine since the 1980s 
occurred in east Africa, directly affecting more than 10 
million people.
    This subcommittee held a hearing on the crisis on September 
28th of that year and worked with humanitarian groups to ensure 
that aid was available and provided in the most in-need areas 
of east Africa. We will follow this hearing with a similar 
effort.
    Six years ago, there was great attention given to the 
famine then. It was a catastrophe that caught the world's 
attention.
    Somehow, the current famine has been caught up in the 
numerous global crises we face today and is not as much in the 
news as it ought have been and it is one of the largest 
disasters we have faced in recent years.
    In 2011, we struggled with how to get humanitarian aid to 
those in Somalia who lived in areas controlled by al-Shabaab. 
That problem has not been eliminated 6 years later.
    In 2017, not only is the ongoing conflict in Somalia 
hampering humanitarian efforts there but the continuing civil 
conflict in South Sudan has amplified the impact of the 
drought.
    In 2015, a congressional staff delegation visited the 
historical Equatorial provinces of that country, which still 
produced food, even though poor transportation prevented it 
from being distributed beyond the borders of that region.
    There was no conflict there at the time, only internally 
displaced people. Now all three of the former Equatorial 
provinces are seeing a spreading conflict and with farmers 
unable to plant or to harvest, the lack of food will only 
worsen over time.
    U.N. Secretary-General Antonio Guterres has accused South 
Sudan's Government of ignoring the plight of its own citizens 
struggling through the famine.
    He accused that government's leadership of refusal to even 
acknowledge the crisis or fulfil its responsibilities to end 
it.
    At a time in which access to food is so critical in South 
Sudan, militias in that country supported by both the 
government and the rebels have been accused of intentionally 
destroying crops, looting cattle, and damaging vital water 
supplies.
    In July of last year, it is believed that government 
soldiers were responsible for looting 1.5 million metric tons 
of food from the World Food Programme's warehouse in the 
capital city of Juba.
    As a matter of fact, Greg Simpkins and I traveled to South 
Sudan last August. We went to Juba and we raised all of these 
issues, started with Salva Kiir, to the Defense Minister, to 
the head of the U.N. mission, and many others including 
Catholic bishops, trying to underscore our concern about food 
insecurity, the violence that was escalating because we were in 
a place where just about a month before that about 200 soldiers 
had killed each other from two warring factions right at the 
Presidential palace.
    It was absurd, and we did raise the concerns of our 
colleagues, our Speaker and the President. But not much has 
happened in response, sadly.
    The conflicts in Somalia and South Sudan affect the entire 
region and place added burdens on their neighbors, who must 
also cope with recurring drought.
    These two countries, along with Eritrea, remain the largest 
source of refugees globally. We cannot control the weather 
patterns that lead to recurring droughts in east Africa but we 
must find a way to end the conflicts of those two nations so 
that manmade disasters don't outstrip the impact of nature 
itself.
    I'll never forget how the famine in Ethiopia during the 
Mengistu regime was made all the worse because he used food as 
a weapon. We can't see a replay of that atrocity today.
    The term famine, like the term genocide, should not be used 
lightly. To be considered a famine there must be an extreme 
lack of food in at least 20 percent of the households in any 
area, acute malnourishment must affect 30 percent of children, 
and accrued death rate of more than two deaths per 10,000 must 
exist daily in the affected areas.
    As our witnesses will describe for us today, the situation 
is already or soon will be in a state of famine in areas of 
east Africa.
    Our mission today is to better understand the parameters of 
the crisis, its causative factors and the most effective action 
that must be taken now to save lives and end the threat of an 
even greater casualty count.
    So I want to thank again our witnesses and begin the 
witness testimony with Mr. Matthew Nims, who has more than 17 
years of international development and emergency programming 
experience.
    He has been with USAID since the year 2000 and has worked 
in Indonesia, Guyana, Afghanistan, and here in Washington.
    Starting in August 2011, he began serving as the deputy 
director of the Office of Food for Peace and since January 2017 
has been the acting director of the office with a $2 billion 
budget.
    Food for Peace is the U.S. Government's lead for addressing 
food insecurity worldwide in both emergency and development 
situations.
    Mr. Nims, the floor is yours.

STATEMENT OF MR. MATTHEW NIMS, ACTING DIRECTOR, OFFICE OF FOOD 
  FOR PEACE, BUREAU FOR DEMOCRACY, CONFLICT AND HUMANITARIAN 
     ASSISTANCE, U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT

    Mr. Nims. Chairman Smith, esteemed staff, thank you for the 
invitation to come speak with you today about the food security 
situation in east Africa, especially the threat of famine in 
Somalia.
    Thank you for drawing attention to the plight of the 
world's vulnerable people and your long history of support for 
humanitarian efforts.
    This year, massive humanitarian crises are occurring around 
the world, demanding an immediate, substantial, and creative 
response.
    Our famine early warning system network, FEWS NET, warns 
that an unprecedented 70 million people will need emergency 
food assistance this year due to ongoing conflict, severe 
drought, and economic instability.
    These crises are largely manmade with other compounding 
factors like the drought in Somalia, making the situation even 
more untenable.
    East Africa is facing one of the worst droughts ever 
recorded and as many as 15 million people in Somalia, Ethiopia, 
and Kenya are facing food and water shortages as a result.
    In many areas, vegetation conditions are the worst on 
record and if the rains fail this spring, the situation will 
continue to deteriorate.
    We are seeing the worst in Somalia, where the effects of 
drought are being compounded by insecurity. In 2011, nearly 
260,000 Somalis, half of them children under five, died in a 
famine triggered by what was at the time east Africa's worst 
drought in 60 years.
    If current trends continue, famine, a term we do not use 
lightly, could happen again in Somalia. Already, more than 6 
million Somalis, over half the population, are in need of 
humanitarian assistance and the rate of severe acute 
malnutrition is rising.
    The crisis in Somalia also has regional effects, as people 
leave to look for food and support in neighboring countries. 
This migration, as well as refugees arriving from South Sudan, 
strains already depleted neighbors Ethiopia and Kenya.
    But even with these challenges, these governments are 
proactively responding to the drought and USAID is aligning its 
investments with these country-led efforts.
    USAID has rapidly scaled-up and redirected its efforts, 
providing vital food and malnutrition treatment as well as safe 
water, improved sanitation and hygiene, and even in the midst 
of an emergency we look for opportunities to build resilience 
and strengthen the communities' ability to respond to future 
shocks and stresses.
    I recently visited a livestock market that is part of these 
resilience-building activities in the arid lands of northern 
Kenya.
    The market, and others like it, support the livelihood 
activities of the pastoralists in the region, providing 
livestock trading and veterinarian services and in turn spawn 
opportunities for entrepreneurs in the local economy.
    Jacob, for instance, fixes the motorcycles of people 
traveling to and from the new markets, and Mercy runs a 
restaurant to feed traders using locally grown food.
    These efforts across the region are expanding economic 
opportunities, strengthening drought cycle management and 
improving health and human capital.
    Over the long term, a British study estimates that every 
dollar invested in resilience results in nearly $3 in reduced 
humanitarian spending, avoided loss, and improved wellbeing.
    Challenges remain, however. In South Sudan, years of 
intense violence has transformed the world's youngest nation 
into one of the most food insecure in the world.
    Nearly half of South Sudan's population faces life-
threatening hunger this year, and famine was declared in 
several counties just last month.
    In northeastern Nigeria, more than 5.1 million people are 
facing severe food insecurity and nearly 450,000 children will 
experience life-threatening, severe acute malnutrition this 
year. Famine likely did occur in 2016 but access has made it 
difficult to confirm.
    Lastly, I would be remiss not to mention the situation in 
Yemen, which is experiencing the largest food security 
emergency in the world.
    Conflict, political instability, economic crisis, and 
rising food and fuel prices have left more than 17 million 
people food insecure.
    This situation has repercussions in east Africa as refugees 
flee to Somalia and Djibouti, who are struggling to handle the 
influx even as they face their own domestic crises.
    These broader challenges are important to note because we 
are never focusing on just one country or region at a time. The 
United States cannot do it alone.
    We need the United Nations, affected governments, donor 
partners, and NGOs like the ones that will be testifying after 
me to work together to tackle these challenges.
    I want to thank these partners and our staff at USAID for 
their tireless efforts and dedication to helping those affected 
around the world.
    Thank you, Chairman Smith, for your attention to these 
issues and for congressional support provided to USAID, 
especially our humanitarian programs over the years. Please 
know that your support transforms and saves lives every day.
    Thank you for your time.
    [The prepared statement of Mr. Nims follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. Thank you very much, Mr. Nims, for your 
testimony and above all for your work, which has been 
tremendous over the years and, obviously, during a crisis like 
this it is needed now more than ever.
    Let me just ask you a few questions. About a month ago, you 
had testified that Djibouti, Ethiopia, Kenya, and Somalia all 
pledged regional cooperation and cross-border cooperation to 
tackle the drought and the underlying fragility of the region.
    Has there been any fruit to that effort? Are they truly 
cooperating? And are we ahead of the curve this time, are we 
just keeping or head afloat, or are we behind?
    Mr. Nims. Thank you for that question.
    As far as cooperation efforts of those countries that you 
mentioned, through the IGAD network they have brought together 
leaders of those governments to work better together to address 
this crisis.
    I think the efforts, most notably in Kenya and Ethiopia, 
are showing the greatest strides. For example, the same drought 
that is affecting Somalia is also affecting those two 
countries.
    But those two countries are better able to withstand what's 
happening. Kenya, for example, is putting $1.6 billion of its 
own resources toward helping people in Kenya that are affected 
by this drought.
    Ethiopia has a longstanding social safety net program in 
conjunction with USAID and other donors to be able to better 
withstand what's going on.
    So the cooperation definitely has started and IGAD is in a 
good position to do this.
    Mr. Smith. Let me ask you with regards to aid workers, when 
Greg Simpkins and I were in Juba, again, late August of last 
year, we kept raising the issue including with the military--
with five of the top generals and the Defense Minister--about 
the need--this was after the Terrain incident where several aid 
workers were raped, many aid workers were beaten and 
diplomats--one journalist, a South Sudanese man, was killed--
and as it turned out one of the aid workers, and I didn't know 
this until about 3 days before we left, was actually from my 
district.
    She was not raped but she was sexually assaulted and the 
two military officers that broke in and broke up what was about 
to become a rape prevented even further tragedy to her.
    But she has been severely traumatized. She was actually 
going to testify at a hearing we had on South Sudan and then 
just didn't want--she was going to do it by way of phone with 
no name attribution, anonymously. But it was just too much to 
tell the story of what an aid worker goes through.
    So my question is, the U.N. Panel of Experts for South 
Sudan said that South Sudan is the deadliest in the world for 
aid workers.
    It seems to me that whether it be USAID and our mission 
leaders and people on the ground or anyone else from the NGO 
community, we have got to just keep pounding away with these 
governments and all parties, including rebels, to leave the aid 
workers alone.
    There needs to be a sacrosanct--this is almost like when 
the Red Cross would show up even the most hostile of forces 
would at least allow the white flag for humanitarian purposes 
to go forward.
    What can we do to--maybe an initial assessment of how bad 
it really is in each of these countries and what can we do to 
make sure that that aid does then flow and that would include 
the indigenous aid workers because sometimes they are picked 
off and hurt because they are seen, well, they are South 
Sudanese and nobody will make a big deal about it.
    Of course, we look at their lives as equally important to 
everyone else's life. So if you could speak to that.
    Mr. Nims. Chairman Smith, thank you very much for that 
question, and it is actually incredibly relevant. We have just 
received reports as of yesterday that six workers from an 
indigenous NGO were killed in South Sudan--three Kenyans and I 
think it is now three South Sudanese. They worked for a local 
NGO.
    USAID does not have a direct relationship with that entity 
but they are definitely partners in trying to bring lifesaving 
aid to South Sudan for the greater humanitarian community.
    I believe that now, since the conflict began in 2013, that 
we have had over 80 fatalities of aid workers in South Sudan. 
It is an incredibly dangerous place to work.
    And I think you're correct in saying that we have to 
ensure, all donor governments and all operating partners, that 
the safety of our people are of utmost concern and that we 
continue to take measures to ensure when they go out to do this 
work that they are protected and that all parties know that 
these are neutral actors in place.
    This has been an issue that we are not just seeing in South 
Sudan. We are seeing other parts of the world as well. As part 
of the World Humanitarian Summit last summer in Turkey, we 
talked about this issue and it is very concerning for donors, 
especially for our office where not only do we have our 
partners, we also have USAID staff in these conditions.
    And this is one of the great changes I think that we have 
seen in the last 5 years about the nature of conflict and what 
we are responding to is that conflicts are not driven 
necessarily by the natural disasters that they used to be.
    They are being driven by conflict. Conflict necessarily 
puts greater risk on our partners. I also think that the people 
that will be following will be able to talk in greater detail 
about some of the actions they are taking.
    Mr. Smith. Let me just ask you, how much money are we 
allocating toward this crisis? Is there a low estimate, medium 
estimate, high estimate?
    What do you think is going to be needed? Will there be a 
request of Congress for additional funding or do you have 
enough that you could either reprogram or you already have?
    And, secondly, on the issue of prepositioning, again, just 
having been in Juba it was appalling that armed forces would go 
to WFP warehouse and pretty much strip it clean of all of the 
foodstuffs that were there which were intended for extremely 
hungry people.
    Prepositioning, GAO found that it does save time. It's 
there in a way that could be accessed quickly. But it does cost 
money, and then there is the risk of theft. How do we balance 
all of that?
    And the idea of WFP tracking food delivery--are we on top 
of that with them to make sure that it gets to where it is 
supposed to be in a timely fashion to alleviate suffering?
    Mr. Nims. Thank you, Chairman, for those questions.
    Let's talk about some of the numbers. Right now, since FY 
2016 Food for Peace alone has provided, including South Sudan, 
close to $1 billion of resources have been allocated in food 
resources to all of those affected countries and that is 
primarily from the Office of Food for Peace.
    Our sister office, the Office of Foreign Disaster 
Assistance in USAID, also has done over $500 million in 
conjunction with our funding.
    So I think that there is a robust response from the United 
States in these crises and we can break down by country some of 
these operations, even by partner at a later date if you would 
like that.
    Mr. Smith. If you could provide that for the record as 
quickly as possible that would be very----
    Mr. Nims. Not a problem. We will definitely be on that as 
soon as this hearing ends.
    [The information referred to follows:]
   Written Response Received from Mr. Matthew Nims to Question Asked 
        During the Hearing by the Honorable Christopher H. Smith

    In FY 2016-2017, the U.S. Agency for International Development has 
provided more than $983 million to the Horn of Africa to date, 
including $762 million in emergency food assistance from Food for 
Peace. In addition, the U.S. State Department's Bureau of Population, 
Refugees and Migration has provided $286 million in humanitarian 
funding for a total of nearly $1.27 billion from the U.S. Government.
    In addition, USAID has provided more than $708 million to South 
Sudan in FY 2016-2017, including $565 million in emergency food 
assistance from Food for Peace. The U.S. State Department's Bureau of 
Population, Refugees and Migration has also provided nearly $123 
million in humanitarian funding for a total of nearly $831million from 
the U.S. Government.

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    Mr. Nims. As far as prepositioning, especially in South 
Sudan but it really goes for other places that we are working 
as well, but South Sudan is a little bit particular. Because of 
the rains in South Sudan, our partners and the donors work 
very, very closely to ensure before the rains hit that food is 
prepositioned in warehouses throughout the country that needs 
to be there so that it can be accessed.
    Conflict will disrupt that--our ability to preposition into 
those warehouses. The case in Juba you mentioned, WFP in 
particular took heroic efforts to remove much of the food 
before the conflict actually began.
    Not all of the food was taken out but that warehouse in and 
of itself they knew that the conflict actors were coming and 
the team moved actually the majority of the food out of that 
warehouse before the conflict.
    So our teams on the ground are very adept at being able to 
know what's going on on the ground and to protect those 
resources. There is always a danger in prepositioning but 
because of the access we get when these conditions allow us not 
able to deliver having that food in place is of primary 
importance. So we are going to continue to use that tool to 
ensure we are best able to respond.
    Your final question about WFP tracking or being able to 
account for the resources--this is something of critical 
importance to USAID in general and definitely our office.
    We at USAID partner with WFP and the NGOs to ensure that 
those that have been targeted are the ones that are receiving 
the aid and there are several ways that we do this.
    First of all is ensuring that those identified are the ones 
that need the aid. In other words, the most vulnerable are 
getting it.
    Our partners are very, very good at ensuring when they go 
to communities, those relationships that they have they are 
able to identify those who are most in need.
    The second part, when we actually go for distribution, is 
that we have teams of monitors in place and we have certain 
biometric measures that we can employ to ensure that those that 
have been identified are actually the people that are getting 
the aid.
    This can go from a retinal scan, to an ID card, to even a 
fingerprint that we would employ to ensure that those people 
are the ones that are supposed to be getting the aid.
    And then finally, we would do, especially in places like 
Somalia and in other places, is a follow-up distribution 
testing to ensure that the people have actually received the 
aid.
    This can be done through cell phone surveys similar to our 
Nielsen ratings that we have here in the United States where we 
will do a random call of beneficiaries to ensure that they 
actually did receive the aid as well as setting up hotlines so 
that the beneficiaries can actually call in to ensure that 
they've got that.
    Finally, what we do is that we, the USAID, has employed 
third-party monitoring. These are actually groups of NGOs or 
other actors that we employ to go back to those areas to ensure 
that the food that was allocated to those regions actually was 
delivered to those people that we are supposed to.
    This all combines to make sure that we have a pretty good 
eye on what we plan to do actually happens and reaches those 
needy beneficiaries.
    Mr. Smith. And before you leave, my good friend and 
colleague, Ranking Member Bass, one issue that we pressed Salva 
Kiir on relentlessly and have done so since our trip there in 
August, to his Defense Minister, his Vice President, who I have 
seen since, is zero tolerance for sexual violence--violence of 
all kinds but including sexual violence.
    The report on the Terrain installation suggested that they 
do that, which is what we were asking for. But it still hasn't 
happened.
    And until the military up and down the command, every 
aspect of it, realizes that its security forces cannot rape and 
harass people, particularly aid workers who are seemingly one 
of the most targeted groups; we really have to raise the bar, I 
think.
    They have promised they would do it. Kiir told us he would 
do it, told Greg and I face to face, and it is about time to 
get it done. That was in August.
    I know you are absolutely on board pushing that. But know 
that we work in tandem, all of us. It is bipartisan.
    That has got to end and they need to implement a strategy 
that is zero tolerance because just like we had with many of 
the peacekeepers when they were deployed to Goma and other 
places, and I had several hearings on that. Went there.
    As you know, I wrote the trafficking laws for the United 
States, the Trafficking Victims Protection Acts. George W. Bush 
did a zero tolerance policy for our military and it holds 
today, and if somebody violates it, even to the point of 
prostitution, the Uniform Code of Military Justice is as clear 
as a bell.
    It is actionable and they can go to prison and they should 
go to prison, those who violate it.
    So, Kiir, we told him that. We said, we know that years 
back you had a fondness for President Bush--well, he did it 
with our military--please do it with yours.
    And he said he would and he hasn't. So it is a point of 
great consternation and anger now that they have refused to 
actually do it.
    So I just would hope you would convey that too because, 
again, the people we want to protect are the indigenous South 
Sudanese, obviously, and the beneficiaries of the aid and all 
those wonderful women and men who put their lives on the line 
as aid workers to help.
    So thank you so much for your testimony.
    Mr. Nims. Thank you very much, Chairman. Thank you for your 
efforts on that point.
    Ms. Bass. Thank you very much for coming and giving your 
testimony today and I just had a few questions for you.
    We have a markup in the full committee tomorrow and we have 
a resolution on the famine, and I just wanted to know what you 
thought about it.
    Right now the resolution is focusing on South Sudan, but 
whether or not you thought Somalia and Nigeria needed to be 
included as well.
    That's one question. I also want to ask you about the role 
of the AU. Is the AU helping and what role they are playing 
specifically?
    And our chairman here was talking about President Kiir in 
terms of the peacekeepers. But I would also want to know 
whether or not they have stopped.
    I don't know if you mentioned this, Mr. Chair, but whether 
they stopped. They had increased the fees for humanitarian 
workers.
    It was some crazy dollar amount--$10,000 or something if 
you wanted to come in and provide humanitarian support. They 
got condemned internationally for that. I don't know if they 
have backed away.
    Mr. Nims. Thank you, Ranking Member Bass, for those 
questions.
    On the first question about including Somalia and Nigeria 
in the resolution, the situation in both of those countries is 
very severe as well.
    In Nigeria, what we are seeing is over 5 million people at 
risk of severe food insecurity and even about the same level in 
Somalia.
    The difference in Somalia is that in about the next 2 or 3 
weeks, if the rains fail, which it is still unknown exactly if 
that's going to happen, we could be seeing even more need 
because those are very crucial rains at this time.
    So it is expected that the needs are going to grow pretty 
quickly in Somalia as well. And in Nigeria, the real issue has 
been the lack of access in some of those areas--in fact, zero 
access in some of them still, and when our partners have had 
access they are finding----
    Ms. Bass. Because of Boko Haram or because of other----
    Mr. Nims. Boko Haram. Because of activities of Boko Haram, 
most definitely, and when our partners have had some access 
they are finding just horrific conditions on the ground with 
severe acute malnutrition rates that are really unheard of in 
quite some time--over 50 percent in certain cases.
    So that is a very, very severe crisis and I can say that I 
think that the partners have really stepped up their game in 
Nigeria. I think that there are several issues to contend with 
but I think that we are better placed than we were as a better 
humanitarian community than, let's say, even 6 or 8 months ago.
    That's not to say there is a lot of work left to do and 
there is a lot of areas of access that we just are not getting 
into.
    Coming back to Somalia, what we are seeing, depending on 
the rains or not, we are still in midst of a very serious 
situation.
    We have lots of people--like I said, 5 million people that 
are really at risk right now. Again, what's a little bit 
different about this is that Somalia definitively it is because 
of a drought that's happening right now.
    It's not to say that there is not intense conflict that is 
really what got us here but the drought is what is most 
concerning and what we need to do now--what USAID is doing is 
not waiting for this to happen.
    We are acting now. We are moving food into the country now 
and working with our partners to ensure that we are there.
    What's a little bit different than the situation now is the 
fact that we have acted a little bit earlier than before in 
2011, as the chairman was saying, and we also have better 
access, meaning our partners have much better access than they 
did in 2011 and really the viability of al-Shabaab has been 
reduced. Back in 2011, al-Shabaab was in control of the capital 
Mogadishu. That is definitely not the case now.
    What our partners are telling us is that in the urban areas 
of Somalia we have pretty good access. We have pretty good 
sustained access. The rural areas are still of concern.
    So around 600,000 to 900,000 people in those rural areas 
really are still getting limited to no access and that is very 
concerning, especially as the drought conditions worsen.
    Your question about the AU, I think----
    Ms. Bass. Well, actually before you go there, the--so in 
Nigeria the Nigerian Government has also said that Boko Haram 
was under control. So----
    Mr. Nims. I would not be in a good position to talk about 
the military and the government's efforts directly on Boko 
Haram.
    I can say that our partners definitely feel that there are 
places that are unsafe for them to access. And similar to 
Chairman Smith's question about putting our partners in danger, 
without adequate control of a situation our partners are just 
simply not going to go to those places and that definitely 
still exists.
    Ms. Bass. Of course not. The AU?
    Mr. Nims. The AMISOM troops have had significant impact in 
Somalia. I think that the combined forces of Kenya and the 
Ethiopians have really opened up those corridors and really 
allowed the NGOs to be able to reestablish a very good network 
and very good operations in there.
    It is hoped that that continues and with elections in Kenya 
and with continuing growth in Ethiopia, let's hope that 
continues. That is a very, I think, good sign of how the AU in 
general has had positive impact on this and I think that will 
continue.
    Ms. Bass. So--and what about the AU and also President Kiir 
in terms of aid workers being able to come?
    Mr. Nims. Correct. So we did hear about a week or so ago 
about a $10,000 per humanitarian worker fee to be able to do 
this. I can say for certain to you right now that that has not 
occurred--that our partners are still operating, that they have 
not been asked to pay those fees.
    Ms. Bass. Was that not true or he backed away from it or--
--
    Mr. Nims. I think many things----
    Ms. Bass. Kind of important if it wasn't true.
    Mr. Nims. I think that the announcement was made. We 
believe that it was made. But I think the efforts of the donors 
and the U.S. Ambassador there has made it very clear that this 
fee is untenable and will not be paid and I think that has had 
substantial impact on it, going forward.
    Ms. Bass. So let me ask you a question. In the President's 
proposed budget with a 30-plus percent cut to USAID, if that 
cut actually went through, how would you respond to this 
situation that you're facing now?
    Mr. Nims. So we at USAID, we have seen the President's 
blueprint and it hasn't specifically mentioned cuts to Food for 
Peace, and we continue to work on the budget.
    But I have no information exactly on the cuts for 2018 or 
the potential impacts that's going to have on our budget.
    Ms. Bass. Okay. I thought that there was a significant cut 
to USAID that was proposed.
    Mr. Nims. I think that there have been proposed cuts. As 
the exact impact of what that's going to be and how that's 
going to be, especially on the humanitarian side, we really 
have no information at this time.
    I feel that it is my job to make sure that with the 
resources we are given by Congress that we make the tough 
choices that are going to be there in the future and that we 
continue to stress the most vulnerable and the most needy in 
the world.
    Ms. Bass. Is there anything else you think Congress should 
be doing right now?
    Mr. Nims. I think having hearings exactly like this that 
bring attention to what's going on not just in Somalia but I do 
think Somalia needs attention--but other places in the world is 
incredibly crucial.
    I think the chairman's efforts on highlighting the safety 
of humanitarian workers as well as the protection issue that is 
definitely apparent in so many of these conflict situations is 
incredibly useful.
    When we are able to get you all to come out to see some of 
these programs that is phenomenal as well. Your visits to the 
field have tremendous impact for your understanding but also 
for us to elevate the situations.
    Ms. Bass. So is the chairman going to go?
    Mr. Smith. Yes.
    Ms. Bass. Maybe I'll go with you.
    Mr. Smith. That would be great.
    Ms. Bass. I yield.
    Mr. Smith. Mr. Garrett.
    Mr. Garrett. Thank you, Mr. Chairman.
    Very briefly, the ranking member asked about the situation 
in Somalia and Ethiopia. I would just give you carte blanche to 
extend whether or not there is a relevant crisis in any other 
nations and leave that open ended.
    But specifically, obviously, when you look on a map you see 
the Republic of the Sudan, obviously, North and South Sudan and 
other surrounding areas and these sorts of humanitarian crises, 
particularly as it relates to famine, generally don't respect 
borders.
    Are there other areas where we might consider the 
application of assistance?
    Mr. Nims. Thank you, Mr. Garrett.
    What I had not talked a lot about, which was a little bit 
in my opening statement, is the situation in Yemen and I think 
the numbers alone in Yemen where we are looking at close to 17 
million people that are severely food insecure and with the 
pending conflict and the existing conflict and how that's going 
to go is definitely cause for concern.
    And because of the proximity of Yemen to east Africa, that 
is a place that will be impacted by maybe refugees coming in or 
large movements of population. Yemen is a place where access is 
very difficult.
    Ninety percent of Yemen's food is imported and, quite 
frankly, the humanitarian assistance alone is just not going to 
be able to impact that situation if there is a full collapse of 
the market or even the ability to import food. I think that we 
should be keeping a close eye on Yemen.
    One aspect is South Sudan, and just yesterday, the head of 
the World Food Programme's emergency division came in to talk 
to us about some issues. She's here in town and is going to 
talk about these four areas that we are talking about.
    And what was surprising to me is that she brought up as bad 
as South Sudan is and how it has just trended down, quite 
frankly, over the last 3 years that she is most concerned about 
that moving quickly into an even worse status and a lot of that 
is because of the continued conflict and what she is seeing.
    And I tend to agree that South Sudan is on a simmer and 
could very easily go into a boil very, very quickly and I think 
that we have to continue our vigilance on what's going on in 
South Sudan and the conflict makes it incredibly difficult for 
us to be able to do what needs to be done as humanitarians.
    Mr. Garrett. So, Mr. Nims, you're here and we are speaking 
about a humanitarian crisis that the vast bulk of the world is 
not aware of.
    To that end, is there something with which the common 
observer of world events might put this on scale with? Can you 
compare it to--this crisis to another humanitarian crisis to 
provide scale?
    Mr. Nims. So what we have been saying in humanitarian 
circles is that we have not seen this level of need or 
population movement or refugees since World War II.
    So, in fact, this is unprecedented in, really, quite 
frankly, human history, the level of need. I think it is 
important to say that even in the case of Somalia where we are 
seeing a drought that every single one of these four major 
conflicts in northern Nigeria, in South Sudan, in Yemen and in 
Somalia, are all primarily due to conflict.
    These are man-made situations and I think it is important 
for us to understand that as dedicated as the people in USAID, 
as dedicated are the people who will be talking afterwards, 
humanitarian assistance cannot solve these crises.
    We really need to have political solutions. We need strong 
leadership from the U.N. and other places to be able to bring 
cogent solutions to what's going on.
    We didn't talk about Syria or what's going on in Iraq. 
These are similar longstanding crises that really exist because 
of manmade conflict and we cannot, in the sense as we say 
``HA''--humanitarian assistance--ourselves out of this.
    Mr. Garrett. So are there any regional players who, if they 
were to change attitudinally, might be of key assistance as it 
relates to getting the aid where it needs to go.
    Obviously, in Yemen, for example, there is real challenges 
just getting on the ground much less getting aid where it needs 
to go.
    Are there any countries where if they were to sort of 
change the current status of their activities in their own 
region would be able to be particularly helpful, and who and 
how so?
    Mr. Nims. Thank you for that question, Congressman.
    I think you're getting into a realm of me as an operator. 
You know, I definitely can look at the situation----
    Mr. Garrett. Sure. I respect that.
    Mr. Nims [continuing]. That's going on. I think that we 
have talked to our State Department colleagues and they are in 
a much better position to answer some of those questions and I 
appreciate that.
    Mr. Garrett. Sure. Yeah, no, I get that.
    Thank you, Mr. Chairman.
    Mr. Smith. Mr. Garrett.
    Mr. Castro.
    Mr. Castro. Thank you, Chairman.
    Thanks for your testimony today and I apologize if I ask 
something that's been asked already. I had my Western 
Hemisphere Subcommittee hearing at the same time so I've been 
in and out.
    But let me ask you, how will the reduced U.S. contributions 
to U.S. peacekeeping affect the humanitarian situations in 
South Sudan and Sudan?
    Mr. Nims. Thank you for that question, Congressman.
    I am really not able to say exactly how reduced funding to 
any one group, especially on that level of the U.N., would have 
a direct impact.
    I do know that the peacekeeping force in South Sudan, for 
example, has a critical role to play. But the level of funding 
from the U.S. or other agencies I am not really able to say 
what that exact impact would be.
    Mr. Castro. But I suspect that reduced funding probably 
wouldn't be helpful, right?
    Mr. Nims. I would agree that probably it would not be 
helpful.
    Mr. Castro. Yes. Let me ask you, as far as you know what is 
China's commitment to humanitarian aid in Africa and in this 
region in particular?
    Mr. Nims. Thank you for that question.
    I am not fully versed on exactly the levels that we have 
seen from the Government of China in humanitarian assistance.
    I do know that USAID and the State Department have been 
engaging with officials from China to increase their role in 
humanitarian assistance and I believe that China recently has 
announced some bits of funding for Somalia, for example.
    But I don't know those exact numbers and we can definitely 
get back to you on what those figures have been.
    Mr. Castro. Well, and part of the reason I ask, for 
example, is because China has been more active in Africa, the 
continent generally, in terms of economic development 
investment and I wonder if they have also stepped more 
aggressively into the humanitarian aid role.
    Mr. Nims. I do think that they have increased some of their 
funding in certain ways and we are hopeful that it will 
continue and I know that we have efforts to engage them in the 
humanitarian sphere specifically on how to engage with the U.N. 
and other actors. But we can get you more of that information 
at a later time.
    [The information referred to follows:]
   Written Response Received from Mr. Matthew Nims to Question Asked 
           During the Hearing by the Honorable Joaquin Castro
    At the 2016 U.S-China development cooperation dialogue, the United 
States and China agreed to enhancing collaboration on global food 
security, deepening coordination on humanitarian assistance and 
disaster response, and working collaboratively with multilateral 
institutions such as the World Bank and United Nations to implement 
sustainable development goals. The United States has also urged China 
to increase its contribution to humanitarian assistance, both to 
countries directly and to multilateral agencies. Recent Chinese 
humanitarian assistance funding includes:

        <bullet>  At the second Forum on China-Africa Cooperation in 
        December 2015, Chinese President Xi Jinping pledged $156 
        million in 2016 emergency food aid to countries faced with food 
        security crisis caused by El Nino, including approximately $88 
        million in support for Ethiopia, Somalia, and nine other 
        African countries.

        <bullet>  In September 2016, China announced plans to provide 
        $100 million to the UN Peace and Development Trust Fund in 
        assistance to refugees facing humanitarian need.

        <bullet>  In 2016, WFP received $5.94 billion in contributions, 
        including $18.6 million from China--an $8.1 million increase 
        from the 2015 Chinese contribution of $10.5 million.

        <bullet>  In 2016, UNHCR received $3.34 billion in donor 
        contributions, including $2.8 million from China. This is an 
        increase of $1.86 million from the 2015 Chinese contribution of 
        $941,841 to the UNHCR.

        <bullet>  China is one of the top 10 donors to the FAO, with a 
        2017 contribution of $14 million. Other Chinese contributions 
        to UN agencies for 2017 are not yet publically available.

        <bullet>  On the development side of food security, China has a 
        long-standing strategic alliance with the FAO to support 
        tripartite cooperation in developing countries, and has 
        contributed $80 million to the FAO-China South-South 
        Cooperation trust fund since its inception in 2008.

    Mr. Castro. Sure. And, you know, and of course we want the 
aid to get there regardless of where it comes from, right? You 
want people to be helped when they need help.
    But I have said before that the President's posture toward 
many nations around the world and his scaling back of funding 
for things like humanitarian aid are making the United States 
take a back seat to other countries when it comes to being a 
leader in the world.
    And part of that is not only economic engagement but also 
this kind of aid, and when you couple this scaling back with 
the hostility that he's shown toward countries like Mexico, for 
example, allies around the world, or Germany, Australia, I 
think it puts the United States in a very precarious position 
and also allows a nation, an economic competitor of ours, a 
nation like China to step forward and really become an even 
stronger leader around the world, and that Xi Jinping, the 
President of China, probably sees Africa as a further 
opportunity in addition to what they've done economically there 
to step up and be helpful in ways that it looks like this 
administration is committed to backing away from. What do you 
think about that?
    Mr. Nims. I think that USAID has been, and especially the 
Office of Food for Peace and our sister office, OFDA, have 
enjoyed tremendous support from Members of Congress and what we 
have been able to do over the last 3 years has really saved 
countless lives.
    We look forward to continued support to be able to do what 
we do because, as I said earlier, I think we are looking at an 
unprecedented time of need and I hope that we will be able to 
continue to do that.
    Mr. Castro. Well, I appreciate that, and we want you all to 
be successful. I worked with USAID on the global development 
lab legislation that we got through the House and couldn't 
quite get through the Senate. Hopefully, it'll get through this 
term.
    But I would hate to see the work of this Congress and, you 
know, the chairman, I know, has worked on these issues a lot--I 
would hate to see your work and the work of this Congress 
undone by a lack of commitment, going forward.
    Thank you.
    Mr. Smith. Thank you, Mr. Castro.
    Mr. Nims, thank you very much for your testimony. We do 
have a series of four votes, and I apologize--we will have a 
brief suspension of this subcommittee.
    But I would point out that the President does propose and 
we dispose in the House and Senate. I've been here 37 years; 
I'm in my 37th year as a Member of the House and we fought hard 
and back--pushed back when Obama wanted to cut tuberculosis and 
cut it significantly.
    He wanted to cut neglected tropical diseases--we had a 
major bill that I have introduced on neglected tropical 
diseases--down from $100 million to about $82 million. 
Thankfully, in a bipartisan way we pushed back.
    I don't know if it is OMB or it is the President but we 
always seem to have people in the White House that talk a good 
game and then we end up not getting what we think we should 
get.
    I do think the Congress will very carefully, both the 
authorizers and the appropriators, will look at these budgets 
and make sure that we get humanitarian aid to where it is 
needed most and to do it in a way that does our American public 
proud that we care for the least of our brethren and I mean 
that by situationally, of course, because they are 
disadvantaged by famine.
    Thank you so much, Mr. Nims, and we stand in recess.
    Mr. Nims. Thank you, Mr. Chairman.
    [Recess.]
    Mr. Smith. Subcommittee will resume its sitting and, again, 
I apologize for the delay because of the votes. I don't think 
we will have another vote for a long time. So thank you for 
your patience.
    We will begin now with our second panel, beginning first 
with Mr. Ken Isaacs, who serves as vice president of programs 
and government relations for Samaritan's Purse. He has served 
as the director of the Office of Foreign Disaster Assistance 
within USAID.
    He coordinated the United States Government response to the 
Indonesian tsunami, the Pakistani earthquake, the humanitarian 
relief efforts in both Darfur and southern Sudan as well as the 
Niger and Ethiopia emergency responses.
    He led Samaritan's Purse's organizational efforts in 
Liberia in response to Ebola and testified before this 
subcommittee on that very issue in 2014.
    We will then hear from Mr. Michael Bowers, who is the vice 
president for humanitarian leadership and response for Mercy 
Corps.
    In this capacity he is responsible for leading and 
supporting Mercy Corps' global emergency operations, enhancing 
their quality and accountability, and ensuring that they bring 
the greatest benefit to people in need.
    Mr. Bowers has directed the agency's activities in sub-
Saharan Africa, the Balkans, and Asia, managing programs in 
food security, shelter, agriculture, and economic development.
    Mr. Bowers recently led Mercy Corps' humanitarian 
assistance programs in Turkey and in northern Syria in 2017.
    We will then here from Thabani Maphosa, who is partnership 
leader for food assistance at World Vision International and 
acting senior director for the food security and livelihoods 
team at World Vision, United States.
    In these roles, he leads a global team of technical 
specialists across the World Vision partnership to deliver 
quality food assistance programming. His careers included 12 
years at World Vision working in numerous countries in southern 
Africa. He currently serves as the representative to World 
Vision International on the World Food Programme's executive 
board.
    Finally, we will hear from Ms. Faustine Wabwire, who is 
Bread for the World Institute's senior foreign policy analyst 
at the institute.
    Ms. Wabwire provides policy leadership on issues including 
climate change, global poverty and hunger, social protection, 
the need for strong institutions and local capacity, and the 
role of effective U.S., partner country, and multilateral 
assistance in providing solutions.
    Prior to joining Bread for the World Institute, Ms. Wabwire 
held a number of positions in academia, research, and 
international development at the national, regional, and global 
levels.
    I would like to now yield the floor and welcome back Mr. 
Isaacs.

   STATEMENT OF MR. KEN ISAACS, VICE PRESIDENT, PROGRAMS AND 
            GOVERNMENT RELATIONS, SAMARITAN'S PURSE

    Mr. Isaacs. Thank you, Mr. Chairman, and I want to thank 
you and the representatives, all the fellow guests to the 
committee for the opportunity to speak here today on behalf of 
those suffering as a result of what is being referred to as a 
quiet famine in the Horn of Africa, Ethiopia, Kenya, Somalia, 
South Sudan, Sudan, and Uganda.
    And the numbers have been gone over in much greater detail 
this morning than I need to enumerate now but I will say a 
couple of things, that the crisis is a result of many factors.
    Certainly there is the weather. There is market influences. 
But what I really want to focus on is South Sudan.
    We are working in an area, Mayiandit, that has officially 
been declared as a famine zone, and between South Sudan, Sudan 
and Uganda, Samaritan's Purse is feeding probably 2 million 
people a month. So we have a large presence there.
    We have large activity. We have solid relationships with 
Food for Peace program, with OFDA, and particularly with the 
World Food Programme, and I want to acknowledge their great 
contribution to everything that is going on there.
    The most significant driver of the current crisis in the 
worst hit area of South Sudan is political insecurity and 
brutal conflict and it continues to engulf the region.
    In South Sudan alone, I have got a number here--1.85 
million people have been internally displaced, leaving their 
homes and their crops behind as they flee for their lives.
    A week ago Sunday, we had 15 of our national staff were 
abducted. They were taken at 2 a.m. They came into our compound 
and they kept them for 3 days. Thankfully, no one was hurt. 
There was no ransom made, but it had to do with the local 
dynamic over humanitarian assistance and this shows some of 
what was being talked about earlier from Congressmember Bass 
about the dangers to humanitarian workers, and it is a growing 
problem.
    The seven that were killed just 2 days ago--the problem is 
that the central government doesn't control the people with the 
guns anymore. They have control over the main elements of the 
SPLA but there are so many factions and factions of factions 
and factions of factions that you can make a deal with 
somebody, you can get a permission and you don't know that 
that's going to extend into the next village.
    As a result of the insecurity there what Samaritan's Purse 
has done is, to be honest, it has caused us to create our own 
security department that reaches all the way back to 
headquarters.
    So we have a separate analysis and can monitor our people 
whether that is electronically--we track them. The negotiations 
that go on are all-consuming, but the safety of our staff is 
important.
    I think that the United States needs to maintain its 
leadership in humanitarian response around the world, and with 
all of the talk that's going on of budget cuts, I don't know 
where that's going down and I don't want to get into the 
politics of it.
    But there is criticism going around about development aid 
or a lot of times you hear sort of a broad term we are going to 
cut development money.
    I think that there needs to be a clear delineation in the 
thinking in people's minds between humanitarian assistance and 
development money.
    Even at the end of wars America has always fed people. We 
fed our enemies, and I don't think that food should be a 
bargaining chip and I don't think that food should be a tool of 
diplomacy.
    I think that giving humanitarian aid represents the best of 
the heart and the spirit of the American people and I think 
that whatever it takes to do that in supporting Food for Peace 
and supporting the World Food Programme I believe that we need 
to make that effort.
    I think that there are also some things that could be 
considered that would be very beneficial in food aid reform.
    The system right now--pretty much there is some flexibility 
for local purchase with cash but I think that if that could be 
reviewed for even more flexibility and that means to buy 
commodities out of local markets, arrange local logistics that 
would not only stimulate local economies but frequently you 
would be able to get more food at a better buy.
    In Uganda, 1.5 million people are in phase three of a food 
crisis situation. Eight hundred thousand of them have come from 
South Sudan.
    Right now, we are feeding about 60,000 a month. In 2 weeks, 
that number is going to go up to about 300,000 a month.
    The pressure that is being created in the region from the 
insecurity is going to breed more insecurity is what's going to 
happen. So you have a situation where the lack of food is not 
only causing suffering, people are moving for food. People are 
selling their goods for food. They are sort of using up their 
coping mechanisms.
    A famine is--here is a great analogy of a famine. It is 
like a big tree when the wind blows. The wind blows and the 
tree leans and it comes back up. And the wind blows harder and 
it leans a little bit more and it comes back up.
    But there is a point if the wind blows over the tree can't 
get back up and in those areas that the FEWS NET has declared 
as a famine zone it is there now.
    So what this means from an optical perspective, just 
speaking candidly and from a human perspective, is that a lot 
of people are going to die.
    And I think that it is important that that be said, that 
people know that, that the Congress knows that and that we 
carefully consider the role that we want the United States to 
play in that.
    So I think that I'll leave you today with four points to 
sort of simplify this. One is that the famine and the situation 
is severe.
    Two, the crisis is a result of many things but in the worst 
areas it is resulting from conflict and lack of access and 
insecurity.
    Three, I think it requires sustained American diplomatic 
leadership to have an effect there. Somebody asked earlier 
about the AU and what they are doing. You know, I can't pass 
judgment on the AU. I can just say look at what's going on in 
South Sudan and make your own conclusion.
    And I think also that the situation requires sustained U.S. 
leadership and the provision of humanitarian goods.
    I think saving lives is representative of American values. 
Thank you for letting me talk to you.
    [The prepared statement of Mr. Isaacs follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. Thank you very much for your testimony and even 
more importantly for your extraordinary leadership.
    We have been joined by Eliot Engel, the ranking member of 
the full committee.
    Mr. Engel. I will be brief. Thank you very much. Thank you, 
Chairman Smith, Ranking Member Bass.
    I am very grateful at the ranking member to the 
subcommittee for calling this hearing and bringing attention to 
the grave humanitarian crises that's worsening in east Africa 
and worsening--it is really scary because it has been pretty 
bad up until now.
    The U.N. estimates that nearly 300 million people in east 
Africa don't have the food they need. Right now Somalia, South 
Sudan, and Sudan face dire food needs while parts of Ethiopia, 
Kenya, and Uganda face a crisis nearly as bad for several 
years.
    Seasonal rains have failed in the Horn of Africa, a direct 
result of climate change and looking ahead, this crisis holds 
potential for massive displacement.
    So we have an extreme weather condition caused by climate 
change. We have a worsening famine. We have a brewing 
displacement crisis.
    These sound like the sort of issues our State Department 
and USAID are designed to grapple with. So I will reiterate the 
points I made this morning at our full committee hearing. The 
administration's request to cut our international affairs 
budget by a third would be devastating.
    The lack of leadership in senior roles including USAID 
Administrator, director of USAID's Office of U.S. Foreign 
Disaster Assistance, the Assistant Secretary for Africa, 
Assistant Secretary for Population, Refugees, and Migration, it 
makes it impossible for our agencies to do their jobs because 
these slots have not yet been filled.
    American leadership is vital and so far this administration 
by its actions is undermining our country's role in the world. 
Among the two worst cases we see are in Somalia and South 
Sudan. I would like to briefly focus on those.
    Between 2010 and 2012, Somalia suffered through the worst 
drought and famine in 20 years. Failed harvests, a spike in 
food prices, and insecurity that impeded the delivery of food 
and aid exacerbated this crisis. It exacerbated and was 
exasperating.
    A quarter of a million Somali refugees lost their lives 
including 133,000 children under the age of 5. That just breaks 
your heart to see that.
    And the main lesson learned from that tragedy is that 
humanitarian assistance came too late and we need to remember 
that lesson today. More than 6 million people are in need of 
assistance in Somalia and nearly 3 million face crisis or 
emergency levels of food insecurity.
    If the April to June rains fail again, this situation could 
worsen quickly, potentially leading to another humanitarian 
tragedy and massive displacement in the Horn, which in turn 
could lead to instability in Kenya and Ethiopia.
    I will soon offer a resolution supporting ongoing efforts 
by our Government along with the U.N. and the donor community 
to help meet the challenge of drought and food insecurity in 
the Horn of Africa.
    Turning to South Sudan, more than 40 percent of the 
population, nearly 5 million people, currently face severe 
life-threatening hunger. By July, that number will likely rise 
another \1/2\ million.
    Last month, the U.N. declared 100,000 people to be coping 
with famine conditions. The security situation on the ground 
remains dire. This past weekend, six aid workers were ambushed 
and brutally murdered in South Sudan. Since December 2013, 
nearly 80 aid workers have been killed.
    The United States and our partners have taken on the tall 
order of distributing food and other necessities to those in 
need. Many of the worst off communities are inaccessible by 
road for most of the year and last month famine was declared in 
two counties in South Sudan.
    So we need to continue providing humanitarian support and 
pressuring the government in South Sudan and the armed 
opposition to put the needs of their people first.
    And I'm pleased to cosponsor Ranking Member Bass' 
resolution calling for strong support to address the famine 
there.
    So I thank you, Mr. Chairman. I'm grateful to the 
subcommittee for addressing and dealing with these difficult 
issues. I'm grateful to our panellists, and I yield back.
    Mr. Smith. Thank you very much, Mr. Engel.
    Dan Donovan.
    Mr. Donovan. Thank you, Mr. Chairman. I apologize for not 
being here earlier. I was at a budget briefing that my good 
friend, Eliot Engel, from New York was just talking about.
    I understand that part of the crisis is caused by nature 
and there's nothing we can do about a drought. But some of the 
other difficulties is either a lack of aid or disruption of 
delivery of aid.
    What are--and you may of--this may repeating because I 
wasn't here when you all testified, but are those the two main 
problems that we are facing--not enough aid and the disruption 
of delivery of aid?
    Are there other issues that we should be knowing about so 
that if this can be addressed congressionally that we'll be 
able to at least understand the causations?
    Mr. Isaacs. Thank you, Congressman.
    Access is an issue. Access is an issue because it is 
insecure, because humanitarian workers are a target of 
opportunity or they can become a target of political 
opportunity. So that puts our staff in danger.
    That's a problem. And there is some generalized breakdown 
over the last 15 years on this issue that humanitarian workers 
don't get neutral space, I will call it.
    But I think that also some of the decisions in the steps 
that the Government of South Sudan are taking are hurting 
themselves. One of them is the $10,000 per person fee for a 
work permit for foreigners.
    Another one that is problematic is that they want to 
nationalize the staff. We understand that and we have always 
worked with that. They've said that they wanted 10 percent of 
the staff only to be expatriates.
    So we have in South Sudan about 900 staff and we've got, 
like, 35 or 40 expatriates. But now they have actually come 
back and said this position has to be a South Sudanese--this 
position has to be--so you're talking about complicated 
financial matters.
    You're talking about the oversight that this subcommittee 
and other committees would be interested on the use of U.S. 
food and that requires expertise and skill.
    And if you look around you would see that in South Sudan 
maybe 75 percent of the people are illiterate. So they, just as 
a nation, have not built the capacity to fill the positions 
that they're calling for us to fill and they are putting 
pressure on us and they have tied all of that together to the 
issuance of work permits.
    So they're not creating an inviting environment for NGOs to 
come in and help and I think that at the very best they need to 
put off whatever roles that they think need to be enforced for 
36 months or something. They need, as a nation, to get through 
this famine.
    They have got all kinds of other wars and other issues 
going on. But it is complicated to work there. It is dangerous 
to work there and some of the government policies that we see 
being demanded are counterproductive, in my personal opinion.
    Mr. Donovan. Can you just expound on the disruption of 
delivery? Is that caused by government entities? Is that caused 
by some of the people that are involved in the conflicts?
    Mr. Isaacs. So we had 15 people abducted a week and a half 
ago and they are a faction of a faction, and no one is in 
control of them.
    So it was the local military garrison leader that made the 
decision that he was going to come through our compound at 2 
a.m., threaded his way past an SPLM garrison. And I want to be 
careful here because I don't want to point fingers--I have got 
to go back and work with everybody. It's important.
    But what I'm saying is that the command and control 
structures--that's multiple structures--are weak and they're 
fragile. And so you end up with a lot of guys with guns out in 
the bush and then they develop their own political thinking and 
then they decide to take action and that could be exercised 
probably--what happened when these people were ambushed and 
killed 2 days ago on the way to Pibor.
    You don't know how that's going to be manifested. But it 
creates a atmosphere of insecurity and too often humanitarian 
workers are the target of that.
    Mr. Donovan. Does it create a black market of the items 
that are confiscated through a disruption, the folks that you 
are speaking about now?
    Mr. Isaacs. So I don't know anything first-hand about a 
black market. That's not unusual in a war zone. But I will say 
this about South Sudan is that their inflation has been so 
enormous over the past couple of years and the availability of 
food is so low I think that food is going to go to feed hungry 
people.
    Even if somebody steals it they may get some money but it 
is still going to all feed hungry people. Having your trucks 
looted is not what you want. But I don't have first-hand 
knowledge with large black market activity there.
    Mr. Donovan. All right. Thank you. Does anyone else want to 
comment on that?
    Mr. Smith. Maybe if we could just get through all the 
witnesses----
    Mr. Donovan. Yes.
    Mr. Smith [continuing]. And then we'll----
    Mr. Donovan. Absolutely.
    Mr. Smith. But great questions. They are very good 
questions. Maybe you could incorporate that into your--into 
your testimony.
    Mr. Bowers.

 STATEMENT OF MR. MICHAEL BOWERS, VICE PRESIDENT, HUMANITARIAN 
              LEADERSHIP AND RESPONSE, MERCY CORPS

    Mr. Bowers. By the way, I have worked with Mr. Isaacs 
before when we were trying to combat famine in North Korea. 
Mercy Corps and Samaritan's Purse had a large program there and 
it is always good to be with esteemed colleagues.
    But good afternoon, Chairman Smith, Ranking Member Bass and 
members of the subcommittee. Thank you for holding this 
important hearing and I appreciate the opportunity to testify.
    Mercy Corps is a leading global organization that 
specializes in humanitarian development and peace building 
programs. We operate in more than 40 countries around the world 
including throughout east Africa region and all four of the 
countries considered at risk of famine.
    As you have heard, the current drought in the Horn of 
Africa is more intense and widespread than in 2011. Although 
severe drought plays a part, the regional situation is made 
worse by manmade causes that we have been talking about today, 
which include a deadly mix of conflict, marginalization, 
displacement, violent extremism, and climate change.
    Moreover, insufficient investment in conflict prevention, 
resilience and sustainable development activities allow these 
problems to fester, extending these crises unnecessarily.
    While the immediate priority must be saving lives, building 
resilience and addressing conflict and violence cannot wait.
    Across the region we are working with our local partners to 
deliver food, water, sanitation supplies, healthcare, and 
education in these emergencies.
    Where appropriate we try to provide cash assistance as well 
that allows families to buy the items they need most and, 
Congressman, to your point, where we are seeing opportunities 
and where markets can bear and food is available, giving people 
the dignity and the ability to buy their own food avoids the 
black market issue and it avoids, obviously, a costly pipeline 
of food where we can.
    In South Sudan, we provide communities with emergency water 
and sanitation services, including responding to the recent 
cholera outbreak, and we are distributing crop and vegetable 
seeds, fishing nets and agricultural tools so that people can 
get an option to grown their own food and rebuild their lives.
    In Somalia, primarily with private funds, we are rapidly 
bolstering ongoing livelihood programming while also responding 
to the increasing food insecurity.
    This includes providing water and emergency wet feeding to 
over 21 schools in the central regions of the country that are 
most severely impacted.
    Not only are we saving lives there but we are ensuring 
access to education of over 4,000 school children continue. In 
Ethiopia, in addition to treating malnutrition in the Somali 
region we are responding to the drought with a commercial 
destocking project that allows income to households that derive 
their income from livestock, protects the livestock assets of 
pastoralists, and preserves the deteriorating rangeland.
    There, we are stimulating market linkages as well between 
traders and producers and supports the market prices of 
livestock.
    In Kenya--today we have talked a little about Kenya with 
Matt Nims--there has been little donor funding released for the 
emergency response due to the drought to help bolster the 
efforts of the government, which is sizeable, and is doing much 
what they can.
    However, funding which exists for the drought response has 
in large part been through private means. I was in Kenya in 
2011 during that drought response as unfolded in Somalia and 
witnessed the consequences of that ignoring early action.
    If we fail to respond now we risk a much larger and costly 
emergency response later with too many lives lost in the 
meantime.
    Although funding is also needed across the region, we are 
barely scratching the service with what we have, and I think a 
question that the chairman posed earlier today, is there enough 
money in FY 2017 from the U.S. Government, and I will say no, 
there is not, and I would implore this Congress to not rescind 
$360 million that's on the table for current FY 2017. If that 
is done so, over 8 million people almost immediately but 
certainly in the short term will be left without food.
    Another question that raised the issue--and I think 
Congressman Garrett brought it up--is why is this famine and 
hunger crisis not getting the attention that it did in 2010 and 
2011.
    Well, in part we have seen before that the media by and 
large drives a lot of attention of your constituents. But if 
you think of it this way, 20 million people right now are at 
risk of starvation.
    That is the combined population of the State of New Jersey 
and North Carolina. So if you are speaking to your 
constituents, and then the American taxpayer is wondering why 
should we spend money there, or talking to the administration, 
I would remind them of what Mr. Isaacs just said in terms of 
our moral obligations but also just the sheer numbers.
    So in addition to funding we are also needing access in 
conflict zones, as has been mentioned before. Aid workers 
continue to be killed, injured, or harassed.
    Horrifyingly, these seven individuals that were lost last 
weekend in South Sudan are not a strange trend. That is 
something that is continuing.
    Without safe access to deliver food, water, and vital 
supplies, especially in areas which are on the brink of 
starvation, we will not be able to save lives, frankly.
    Besides the urgent need to respond now, I would also stress 
we can do more to prevent these food crises in the future and 
now.
    To improve food security in the region we need to implement 
a variety of programs that strengthen community resilience.
    New evidence that we have from a USAID-funded program in 
Ethiopia called PRIME confirms that food security resilience 
programs can help communities survive crises and stop the cycle 
of recurrent humanitarian disasters.
    Even as we respond urgently to the crisis in east Africa, 
we must continue to build these communities ability to cope 
with shocks and stress in the future.
    That innovation, that resilience approach, by the way, was 
better embraced with the Global Food Security Act, which I have 
to thank Chairman Smith as well as the rest of this 
subcommittee for helping pass that important bill.
    Finally, because conflict also directly and indirectly 
impacts hunger across east Africa, we need to support programs 
that address conflict where it is happening and mitigate 
potential spillover effects that further stress neighboring 
countries and exacerbate food insecurity.
    This is why we focus on enhancing the capacity of people 
and institutions to prevent and manage conflict and this is 
something very important for the Congress to take into 
consideration as they look through their appropriations.
    You in Congress have an integral role to play in helping 
prevent the spread of famine and create conditions that 
mitigate food crises from happening in the first place.
    I have provided a more detailed list of recommendations 
including budgetary issues in my written statement. But for the 
sake of time I am just going to summarize again that we ask the 
Congress urgently provide lifesaving assistance in FY 2017 and 
FY 2018 through its appropriations process to address ongoing 
humanitarian needs by funding IDA and FFP fully, and that would 
be $1 billion.
    Invest in building the resilience of vulnerable communities 
to prepare for, withstand and recover from these shocks and 
stresses and prevent and manage conflict by fully funding Food 
for Peace, nonemergency programs including the Economic Support 
Fund, and Development Assistance.
    And finally, encourage the administration, as Mr. Isaacs 
mentioned, to aggressively pursue diplomatic efforts by fully 
staffing the State Department and USAID to end these conflicts 
and remove obstacles for humanitarians seeking to reach 
populations in need.
    Twenty years from now when we approach this time we will 
want to say what we did to conclude everything we could to save 
lives and turn this story of starvation into one of recovery.
    I thank you and I look forward to answering some of your 
questions.
    [The prepared statement of Mr. Bowers follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                              ----------                              

    Mr. Smith. Mr. Bowers, thank you so very much for your 
leadership as well and the recommendations you've made. They 
will--they will go from you to a whole lot of people from this 
hearing. So I do thank you for that.
    Mr. Maphosa.

   STATEMENT OF MR. THABANI MAPHOSA, VICE-PRESIDENT FOR FOOD 
             ASSISTANCE, WORLD VISION INTERNATIONAL

    Mr. Maphosa. Chairman Smith, Ranking Member Bass, members 
of the subcommittee, thank you for the opportunity to testify 
before you today on the east Africa hunger crisis. Your 
continued leadership and focus on these humanitarian issues is 
critical and it matters.
    I testify today on behalf of World Vision but also as a 
person born and raised in Africa who has experienced hunger on 
several occasions in my native country of Zimbabwe.
    In 1983, a civil war or a near civil war in the southern 
part of the country disrupted funding activities and many were 
left without food, including my family.
    In 1992, a major drought across the country meant there was 
not enough food for a greater part of the year. It was then 
that I first experienced first-hand the generosity of the 
American people when my family received the yellow corn, 
famously called Kenya in my country because it was coming 
through Mombasa.
    While the focus on my testimony today is to put light to 
the unfolding situation in east Africa, I also want to take 
this opportunity, Chairman, to say thank you to you and the 
members and the American people for the help that you provided 
to me during the hardest time 25 years ago.
    Those who testified before me today have captured the real 
and the grim situation in South Sudan, Somalia, Ethiopia and 
Kenya. The crisis is affecting over 20 million people who 
require urgent and lifesaving assistance. There are other 
pressing humanitarian needs across the globe, as you mentioned 
earlier on when we touched on Yemen, Nigeria and the like.
    But what is unique about east Africa is that a formal 
famine declaration has been issued in parts of South Sudan. As 
an African, I would like to tell you that it is very uncommon 
for African governments to lift their hands and declare these 
famines and when they often do it is a little too late.
    Without an elevated and immediate response, we are gravely 
concerned that the situation could worsen in regions of South 
Sudan, Somalia, and other countries as well.
    We have spoke today about the refugee situation. World 
Vision is working in Kenya, Uganda. In Uganda, we are receiving 
refugees. We are currently have 200,000 refugees that we are 
dealing with and that number has not stopped. They are coming, 
as Mr. Isaacs said, 2,000 a day crossing into the country.
    So the burden of South Sudan is actually spilling over to 
other countries and that needs to be noted.
    World Vision's mission requires us to work tirelessly to 
address the needs of children and their families. As a child-
focused organization, we are particularly concerned about the 
more than 3.5 million children under 5 who are acutely 
malnourished and the nearly 850,000 children who are severely 
malnourished.
    Interventions made today will not only save their lives but 
also reduce the possibility of long-term chronic malnutrition 
and stunting that can occur in the critical first 1,000 days of 
a child's life.
    World Vision has been a partner in these response efforts 
and specifically in east Africa where we have been operational 
for the last 2 to 3 decades.
    We have experienced achievements and challenges and we have 
refined our programming and we have used every lesson that we 
have learned.
    While this crisis remains complex, I would like to present 
three key recommendations or points for this subcommittee's 
consideration.
    The United States Government must maintain its position as 
a global leader through continued and robust support of 
humanitarian development programs.
    For example, I would like to highlight the flexibility that 
we have seen shown by Food for Peace in places where programs 
were already existing and they made sure that they extended 
those programs to respond and to pivot to the needs that were 
emerging.
    We have also seen great coordination between the Offices of 
Foreign Disaster Assistance and Food for Peace where they have 
tried to coordinate to make sure that their resources are 
stretched and go much further.
    But furthermore, it is essential to note that the U.S. 
Government cannot be alone in these things. As such, other 
governments, international donors, and humanitarian actors 
should all join and act swiftly to prevent the crisis from 
worsening.
    Just like my colleagues have said, I would like to urge 
this subcommittee to advocate for funding and programs that 
will respond to this crisis.
    This includes strong support to the international affairs 
budget as Congress finalizes 2017 spending bills and begins 
discussions around 2018 appropriations.
    The U.S. Government and its partners need to adopt multi-
year multi-sector funding to achieve lasting impact in fragile 
contexts. We can thus empower communities to pull themselves 
out of poverty and create a more enabling environment that 
mitigates against future shocks.
    We have experienced this in our work with USAID and the 
World Food Programme in South Sudan, in Ethiopia, in Kenya, and 
I would say a little story from South Sudan when I visited some 
time last year. We saw this community that we have been giving 
food for a while. But over a certain period when we invested in 
resilience projects--and this was a fish pond, fish ponds in 
water view--in just a year we didn't need to actually be 
helping that family.
    And sometimes I think it is important to help those in need 
but come out of that space of needing to help them again.
    During these crises, one of the things that I've noted is 
that resources are disproportionately skewed toward the short 
term. No wonder we find ourselves in the same situation too 
often.
    Our investment needs to be balanced and we need to have 
staying power. Last but not least, while we do our best as 
humanitarians, we call upon recipient governments, donor 
governments, and the African Union to seek political solutions 
to the conflicts that continue to undermine food security in 
some of these countries.
    I think it has been pointed out well today that it is not 
only undermining it for the long term but also in the short 
term. I want to reiterate that your leadership counts. One 
story that hasn't been told here today is that we have made 
tremendous progress in our fight against hunger.
    The number of hungry people has dropped by 200 million 
since 1992 and I am one of those that in 1992 needed yellow 
maize from this country. We know the decisions are hard but we 
are also aware how close we are to achieving a hunger-free 
world.
    Thank you for taking an important step today by holding 
this critical hearing. We thank you. Thank you.
    [The prepared statement of Mr. Maphosa follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. Mr. Maphosa, thank you very much for your 
leadership and for being a person who, having been helped, has 
been helping others ever since, and so thank you.
    That is a tremendous witness to all of us of someone who 
just gives back and gives back and gives back some more. So 
thank you.
    I would like to now recognize Ms. Wabwire. The floor is 
yours.

 STATEMENT OF MS. FAUSTINE WABWIRE, SENIOR FOREIGN ASSISTANCE 
         POLICY ADVISOR, BREAD FOR THE WORLD INSTITUTE

    Ms. Wabwire. Chairman Smith, Ranking Member Bass and 
esteemed members of the subcommittee, thank you for inviting me 
to testify before the subcommittee today on this critically 
important issue of drought and famine in the east Africa 
region.
    I am here in my capacity as the senior foreign assistance 
policy advisor for Bread for the World Institute. Bread for the 
World advocates for policies and programs to end hunger.
    Our 2017 hunger report focusses on the urgency of 
addressing crises in some of the world's most fragile 
environments, including those we are here to talk about today.
    I would like to mention that I have a copy of the most 
recent report, which outlines some of the strategies that 
governments could do, that multi-lateral agencies could do, and 
what governments themselves are doing to address such crises.
    Given the scale and the severity of the crisis, Mr. 
Chairman, Bread for the World urges Congress to reject the 
administration's proposed skinny budget cuts to foreign 
assistance in the face of such serious crises.
    The proposed cuts include slashing or eliminating 
altogether the very accounts that finance the U.S. Government's 
support for emergency response, and I would just like to 
highlight three specific accounts that will be severely 
impacted if the cuts in fact come to effect.
    One, is the Food for Peace account, which funds food aid. 
The second is the International Disaster Assistance, which 
funds nonfood items including water and medical services.
    We know what conditions look like in refugee camps. They 
are breeding grounds for all kinds of diseases. So this account 
is critically important.
    The third account I would like to highlight is the 
Migration and Refugee Assistance account which provides U.S. 
support to refugees in affected countries, neighboring 
countries--for example, refugees right now residing in Kenya 
and Ethiopia.
    Mr. Chairman, I would like to focus my remarks on three 
points today. The fact that has been rightly mentioned by my 
colleague on the panel this crisis comes at a time when we have 
made tremendous progress against hunger and poverty around the 
world. And it can be overwhelming because a lot of people think 
we keep doing this but where is the evidence that we are 
actually making a dent.
    I am here to testify that in 1990 approximately one in four 
people lived with hunger on a daily basis. By 2015, the hunger 
was cut nearly in half and stood at one in nine.
    Over the same period, Mr. Chairman, extreme poverty was cut 
in half by even more--one in three people in the world to one 
in 10. That is progress.
    Countries across the continent have invested in efforts to 
address hunger and poverty including reducing stunting which, 
as you mentioned in your opening remarks, Mr. Chairman, is a 
serious--in fact, it's a hidden hunger issue.
    We know that when children are affected by hunger, 
especially in the critical window between birth and 2 years 
old, their cognitive development is severely affected.
    It means that even when they grow up they are not as 
productive individuals of society, cannot contribute to the 
economic growth that we all hope to see in their own respective 
countries.
    These trends reinforce my belief in the feasibility of 
ending hunger and poverty. I must acknowledge that at the same 
time conflict and severe droughts related to a rapidly changing 
climate are making it much harder for countries to keep up with 
the progress that I just mentioned.
    I recently visited Kenya in December 2015 and January 2017. 
One of the things that really struck me was the effect of the 
drought, especially on communities that have managed to feed 
themselves all of these decades but are now in severe need of 
assistance.
    The early warning system, as was mentioned earlier, is a 
great tool that today helps us assess the extent of the crisis 
and find ways to mitigate its effect.
    FEWS NET mentions that today 6.2 million people in Somalia 
are in dire need of food assistance and especially if the own 
on-coming rains expected in the April season will not be to the 
level that it's supposed to be.
    It's noteworthy also to mention that although we have this 
kind of cycle of issues going on in Somalia, we are at a much 
different place, and I would like to echo what Mr. Nims 
mentioned earlier, that there is relatively more access to 
communities in Somalia compared to when we had the famine in 
2011.
    In 2011, I also remember that we did not have any form of 
government in place. The entire country was pretty much under 
the control of the militant group al-Shabaab. Some progress has 
been made on that front. As we speak right now there is a 
government in place in Somalia.
    In fact, the government has declared the drought a national 
disaster and is willing to work with partners to address this. 
So that's an opportunity right there that we can jump onto.
    I would like to mention that at a time of intense debate 
over the U.S. budget and proposed cuts to foreign aid let us 
remember that investing in food security helps to promote 
economic growth. It also promotes global stability, which we 
all wish for.
    My final point is about the fact that we are not a hopeless 
people. We have the tools that we need to address this crisis. 
The United States has demonstrated leadership through a range 
of tools including long-term development assistance and 
humanitarian assistance, as some of my fellow panelists have 
already mentioned.
    I just want to focus on one of the long-term development 
programs that I am very familiar with and which I would like 
all of you to support and continue to exercise your leadership 
on because it has made such progress in the countries where it 
works.
    Feed the Future is a U.S. Government's global food security 
initiative. It complements funding from countries themselves, 
works with American businesses and universities to promote 
long-term agricultural development.
    It takes a comprehensive and sustainable approach such that 
countries own their own plains and eventually are able to fund 
their own initiatives.
    In addition to all the bilateral assistance I mentioned I 
would also like to add that U.S. leadership in the multilateral 
world is critically important.
    An example that I would like to highlight and which has 
helped to see the gains that we are seeing in Somalia today is 
the United Nations Peace Fund. This Fund promotes co-existence 
and peaceful resolution of conflict.
    It supports the government's priorities for stabilization 
and peace and also focuses on creating jobs. Another important 
multilateral program that the U.S. Government participates in 
is the World Bank's International Development Association. It 
also focuses on supporting countries efforts to build local 
institutions, strengthen governance issues which are so 
critical to addressing some of the issues we are talking about, 
and to prevent future calamities from happening.
    At this point, I would just like to offer three broad 
points upon which I believe that a U.S. Government response 
strategy should look like.
    The administration and Congress should quickly adopt a 
response that does three things--combines food assistance and 
cash vouchers, allowing people to purchase food in local 
markets. It should also specialize on nutrition for most at-
risk populations such as children, pregnant women, and the 
elderly.
    And finally, provide financial and logistical support to 
countries that host refugees to prevent the spillover effects 
like have been mentioned before.
    Thank you, Mr. Chairman. I look forward to answering any 
questions you may have.
    [The prepared statement of Ms. Wabwire follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. Thank you for your testimony and your leadership 
as well. Let me begin. If I could ask you a question. Others 
might want to join in on an answer as well, and thank you for 
underscoring the devastating impact of stunting.
    The outward appearance is mirrored by an inner tragedy that 
occurs when a mind is artificially held back because of lack of 
nutrition and stunting is a direct result, as we all know, of 
insufficient nutrients and food during the critical period, as 
you pointed out, from conception to the second birthday.
    And this subcommittee and this chairman has made the first 
1,000 days one of my highest priorities because if you get the 
first 1,000 days right you get the rest of the life most likely 
to be far better.
    The immune system is bolstered and, of course, cognitive 
abilities once lost are very hard to reclaim later on. So it's 
an early intervention effort that we have been promoting very 
aggressively as a subcommittee for some time now.
    And we have actually convened the African Diplomatic Corps 
recently and heard from three Ambassadors tell of what they are 
doing in their respective countries on this effort of global 
food security, particularly focused on mother and child so that 
mothers are healthier and babies both unborn and newly born 
into that second birthday are healthier as well.
    So if any of you would like to expand upon that because it 
seems to be the progress that is being made is at risk of being 
severely reversed and lives crippled by that lack of food 
security.
    Second, Mr. Isaacs, you mentioned the issue that many of 
the governments do not have control of these militias and as 
you go down the line the men with guns increasingly report to a 
warlord or somebody else--my question is how hard are the 
governments themselves trying to rein in on that practice?
    Are they taking a laissez-faire attitude or are they really 
trying to say, we need a cohesive military unit with a command 
and control structure that truly if we say do this, this 
happens?
    Because when Greg Simpkins and I spoke to Salva Kiir, we 
had every indication that they were in control and that we 
wonder if that's at all true when, again, people with guns, 
even people who had the insignia of his corps were the ones who 
were committing atrocities in Terrain, if you could speak to 
that.
    Let me also ask are we doing enough? I asked this of Mr. 
Nims earlier. Are we doing enough right now? Are we mobilized 
sufficiently with enough money to make a difference?
    Again, as I said earlier, the President and every President 
since I've been in Congress has made recommendations, some of 
which were draconian in their cuts.
    There was a 20 percent cut envisioned by President Obama on 
issues like neglected tropical diseases as well as 
tuberculosis, an issue that I know members on both sides of the 
aisle care about very, very deeply and there are suggestions 
for some severe cuts, which I don't believe in an instant are 
going to happen.
    But there is still reason for concern because they are on 
the table as something that might happen so we have to make 
sure that they don't, especially in light of the crises that we 
are facing.
    So is there enough money in the kitty right now? Are we 
doing enough to really make a difference here? And I have other 
questions but let me ask you to respond to those and then I'll 
yield to my----
    Mr. Isaacs. I'll start with speaking about the security 
sector reform in South Sudan. So the South Sudanese--the Sudan 
People's Liberation Army were formulated over a lot of 
different visions that came together, and Dr. John Garang built 
that into a national vision that ended up being the 
Comprehensive Peace Agreement, the Government of National 
Unity.
    And in the end, the South decided to vote and they went for 
independence during the referendum.
    But when you look at the different military units they were 
never cohesive around the vision. They were cohesive around the 
individual leaders.
    So the building of the SPLA--there was a core contingent of 
it that, let's say, was in the vision and then the rest of it 
was I made a deal with this person and they would come in and 
swear allegiance. So then all the guys that came with that 
person would put on the uniform.
    But the allegiance or the command and control capability 
doesn't necessarily extend down, and as you saw starting from 
December 2013 when the civil war began, when there is a rupture 
between relationships at the top it goes all the way down.
    But then there can be another rupture down below that and 
another rupture down below that. So reform in the security 
sector for South Sudan is something that is desperately needed. 
The other thing I would like to answer quickly is, ``Are there 
enough resources?''
    I am not familiar with the details of everybody's budgets 
but here is what I do know. About 6 months ago, the World Food 
Programme pretty much across the board reduced everybody's 
daily rations by 30 percent and that wasn't just in South 
Sudan.
    That was about 6 months or 8 months ago. Do you remember 
this? Okay. So I am not the only one that has experienced this.
    We haven't talked here and they are shaking yes, they 
remember, too. But this went not only in South Sudan. It was in 
Uganda. It was in Iraq. It was in Syria, Turkey, and Greece.
    Everywhere straight across the board there was a 30 percent 
cut and I think that's reflective that there are so many 
displaced people, there are so many refugee people in the world 
today and now with this drought and other food needs, 
insecurity on top of that, I don't think there are enough 
resources. And this is going to breed greater instability, 
ultimately.
    Mr. Smith. Your point about the 30 percent cut, I chaired a 
hearing 2 years ago on why the massive exodus out of the 
refugee camps run by the UNHCR, and the UNHCR representative 
said it was the 30 percent cut.
    Mr. Isaacs. Yes.
    Mr. Smith. And then people had said, they are not going to 
take care of us--we are voting with our feet, so to speak, and 
were going to just--were just going to leave.
    Mr. Isaacs. Yes.
    Mr. Smith. So in essence it is an ongoing problem.
    Mr. Isaacs. And I am--I am not kicking World Food Programme 
there. I am just saying I don't think that they are being 
adequately funded and I also don't think that it's solely the 
role of the United States.
    I think that by the United States exerting leadership in 
the humanitarian sector that means other countries have to come 
forth.
    And if I may make one last comment--Mr. Nims said it 
earlier but I just want to reemphasize it. Humanitarian aid 
will never resolve political conflict and I think that 
political decision makers in the world today when they can't 
get a political resolution have a tendency to put more pressure 
on the humanitarian players to get a conflict resolved and 
that's never going to work.
    Political division, political strife requires political 
resolution. Yes, sir. Thank you.
    Mr. Bowers. Just a few comments, Mr. Chairman.
    We have talked about men with guns. Often, they are boys 
with guns. But I also want to portray a more positive story of 
what can be lost as well due to budget cuts and some of our 
nonemergency food programs funded by USAID, which is 
integrating these men and boys back into society when they do 
put their guns down.
    So a program that we work in northern Uganda is doing just 
that. And in many ways Uganda, though still going through a lot 
of challenges, has succeeded in looking at how do you deal with 
a restive part of your society that has taken up guns for 
different reasons.
    So there are positive ways actually you can work on this 
issue with men with guns. Now, South Sudan is not at that place 
yet.
    But, clearly, when you look at where cuts will be made, and 
peacekeeping/peace-building programs with impacts on 
communities' resiliency, helping young men, helping boys, 
reintegrate into society and put those guns down is part of 
that food security challenge that we want to get to. Because 
part of the reasons driving them and a lot of recruitment of 
Boko Haram, frankly, was over economics, not just ideology of 
an extremist group.
    A report we put out last year proved that point. A lot of 
them were in debt and they were looking for other financial 
means just to make their life successful by recruitment in.
    So some of these programs have to be done in conjunction 
with other activities both humanitarian as well as development 
assistance that works on security and safety.
    And then finally on the issue, I guess, is if there is 
enough in the kitty. No. Because the world has never been in a 
place we are at today.
    Sixty million people are refugees or IDPs; globally the 
largest ever since World War II. And now we have basically a 
food and famine crisis brewing.
    Now, we have been focused inherently over the last few 
years on what breaks the humanitarian system. Is it 
simultaneous wars in Yemen and Syria? Is it a large natural 
disaster that hits Nepal, et cetera?
    Well, this is another data point in that kind of terrible 
story that we are getting to--that without enough resources and 
certainly without FY 2017 rescinded money people will be 
without food.
    So the WFP account was reduced because essentially WP lends 
to itself in emergencies. It has its own emergency reserve. So 
it pulled internally its funding to meet Nigeria needs, staff 
up, et cetera. They exceeded that amount and then WFP basically 
had to start dialing back.
    Ms. Wabwire. I'd like to briefly respond to the question on 
nutrition and how some of the existing programs are responding 
to this.
    In September 2015 I visited a village in northern Kenya and 
I was sitting with this grandma who is 82 years old. After a 
couple of times, a ton of children came to her and three of 
those were her grandchildren.
    We had been talking about the challenges in the area and 
she explained how the frequency and severity of droughts have 
been increasing over the years, over the course of her 
lifetime.
    One thing that she told me that really stuck with me was 
the fact that she feels so helpless to know that she cannot 
provide nutrition support to her grandchildren.
    She was able to raise her children but today, because of 
the effects of climate change, rapidly changing and erratic 
weather patterns, she's simply not able to.
    So hunger is also an issue that affects people's dignity 
and I think as we talk about addressing some of the world's 
challenges it really speaks to the issue of our moral 
obligation and the values that we hold as a human society.
    Leah came to me and greeted me and the first thing she said 
to me--this was an 8-year-old girl--she said, I feel really 
dizzy. By looking at her, I could tell she hadn't eaten for a 
while. I didn't have to ask her.
    Because I have seen so many of these every time I visited 
countries where a number of U.S. programs are working I get to 
see communities like this.
    One of the programs that I really want to expound on a 
little more is Feed the Future and how it's working to change 
that around. As we may remember, the food price crisis of 2008, 
riots across 40 countries all over the world.
    The Arab Spring was largely as a result of the food price 
crisis where a lot of people could not afford to buy food. The 
following year in 2009 at the G8 Summit in L'Aquila, Italy, the 
U.S. Government stepped forward and called upon partners to 
reverse the decades of neglect in agriculture development. Feed 
the Future was born out of that initiative.
    Today, Feed the Future is very serious and keen on turning 
around the crisis of malnutrition and the way that Feed the 
Future works is that it works with governments. It focuses on 
areas that bring returns on investments. Addressing nutrition 
is one of those.
    Like I mentioned earlier, lack of proper nutrition in the 
critical 1,000 days window destroys people's lives.
    After that, I visited Senegal, a country that's doing very 
well on Feed the Future, and the Government of Senegal has 
actually adopted a lot of the tools and is carrying on much of 
the work on its own.
    So Feed the Future, a program run by USAID, speaks to the 
effectiveness of U.S. assistance when it is targeted. But I 
also want to speak to the fact that we need stronger 
institutions. We need a USAID that's able to carry out these 
functions like it's currently doing.
    Over the last course of about 10 years we have seen major 
reforms across the Agency and I think it's very unfortunate 
that a lot of the stories we hear about this Agency being 
ineffective and wasteful is totally not correct.
    One of the issues I wanted to highlight is the monitoring 
and the evaluations that are happening currently at USAID. 
Since 2011, USAID has conducted more than 1,000 evaluations by 
independent third parties.
    Ninety-eight percent of these have been used to shape the 
Agency's policies and programs. Feed the Future is one of those 
programs.
    I also wanted to highlight the foreign assistance 
dashboard. Out of continued effort from the NGO community, most 
of whom are represented in this room, have continued to 
advocate for U.S. foreign assistance to be more effective, 
return on investment, but also deliver for the people that it 
serves.
    And we are seeing a lot of progress on that front. We are 
seeing more country-led initiatives, governments that are 
willing to work in partnership with the U.S. Government to 
address their own problems.
    So I thought I would use the nutrition piece to just 
highlight the effectiveness of the Agency, USAID that would be 
severely impacted and would reverse the decades we have made if 
these cuts come into effect.
    Mr. Maphosa. Thank you, Chairman. On the topic of nutrition 
I did mention the 1,000 days in my opening remarks and, you 
know, I would like to bring this to life with bringing a 
situation that I came across in the field.
    When we talk about 1,000 days we talk about a pregnant 
mother. That's where we begin, and we talk about a child who is 
under 2 who is receiving lactation.
    I met this mother who is pregnant. She has got a child who 
is under 2 years of age and she has a child who is 5 years old.
    And she's going through a program where we have said we are 
focusing on the first 1,000 days because our resources are 
fewer. And she asks me the question, what would you have me 
prioritize? The child who is in my tummy that I don't see or 
this child that I am lactating or this child that is crying 
loud that is here?
    These are choices that women face every day when programs 
are not able to meet their needs but also when, really, they 
are not able to provide for themselves.
    So the first 1,000 days is critical but it is also a very 
difficult one for a parent who will be having children of that 
age group sitting with them.
    Are we doing enough right now? I will say that the stress 
migration that we are seeing or we are beginning to see in 
Somalia gives me a sense that we are not doing enough because 
otherwise people wouldn't move if we are doing enough.
    It is important for them to be kept or to stay where they 
would rather be productive than to move into a camp. That's the 
last place people want to be. But when you see them moving into 
that space it's because they are actually stressed out.
    Mr. Smith. Thank you. Before yielding to my distinguished 
colleague, just remind everyone--I think the record should 
clearly show it--that there has been a strong bipartisan effort 
on food security.
    President Bush, beginning in 2002, had the initial 
foresight to elevate the important role of food security in the 
U.S. foreign policy, especially in Africa, via the Initiative 
to End Hunger in Africa, or the IEHA, which was funded through 
development assistance and implemented through USAID.
    At the same time, the Millennium Challenge Corporation 
began making substantial investments in agriculture-led 
economic growth programs, particularly in Africa. And as you 
pointed out, I would say to my friend that it was built upon at 
the G8 Summit meeting in Italy in 2009.
    I would like to yield to Ms. Bass.
    Ms. Bass. Thank you. Just adding to that, Feed the Future 
had definitely been a program that has been--has had bipartisan 
support and we actually moved it from just being a program to 
putting it into statute.
    So I've seen it myself personally work in the hills of 
Kenya and to me I think it's an example of really how a lot of 
our foreign aid should be transformed so that it's not just 
about us providing direct services but it's about helping to 
build the capacity on the ground. So, major support here.
    And I think along with that, I mean, I think Electrify 
Africa follows in the same vein. You know, Mr. Isaacs, you 
started by talking about your aid workers and I was just--I 
don't remember if you said what happened--if they were returned 
or if they were released.
    Mr. Isaacs. They were safely released. So the SPLA----
    Ms. Bass. Were they South Sudanese?
    Mr. Isaacs. Yes, they were all South Sudanese. They were 
roughed up a little bit but none of them were killed. None of 
them were hurt. And after we did the debriefing we have a six-
page report--the blow by blow detail is fascinating.
    So they are kidnapped in a village by a local garrison 
whose wife of one of the guys they kidnapped went down and 
chewed out the garrison and said, ``What are you doing with my 
husband? You got to let him go,'' and he said, ``Well, I can't 
let you and your kids go now because we want to fight those 
other guys tomorrow. So now you've got to stay with us.'' It's 
sort of comical but it could have been tragic----
    Ms. Bass. Right.
    Mr. Isaacs [continuing]. And it could have been horrific. 
They were all released safely and we have gone back. We have 
talked with the commissioner in the area and we have even 
confronted the guy and talked to him, and we are trying to 
build an environment where there is some kind of stability that 
we can come back and help people. I mean, it's in the middle of 
a swamp.
    Ms. Bass. Yes.
    Mr. Isaacs. Why would anybody want to come in the swamp and 
fight?
    Ms. Bass. Well, and I think you raise a real important 
issue about where South Sudan is these days--that it's not 
really a situation of two factions but many.
    Mr. Isaacs. It's multiple factions.
    Ms. Bass. And so it's fine to say there needs to be a 
political solution but I am not exactly sure what that is or 
how that comes about.
    I mean, to me without--that's why I always go back to the 
AU even though I know the AU has its challenges. But I love 
what happened in the Gambia as a perfect example and I wish, 
obviously, that wasn't a situation that had ridden to the level 
of war but the fact that the countries came together to resolve 
a situation is what I certainly hoped for. But I don't see how 
it's just political and not militarily as well.
    You also mentioned within Uganda that there was a problem 
and you mentioned that a percentage of the people were from 
South Sudan.
    I was wondering in terms of hunger, famine--I mean, I don't 
think that there is famine that is beginning Uganda unless you 
were saying that, and then what percentage of that is because 
of the refugees versus is Uganda having a problem.
    Mr. Isaacs. Right. So Uganda is in a level right now that's 
probably considered stressed because the agricultural 
production and the markets are considered stressed due to lack 
of rainfall.
    But with now 800,000 people from South Sudan that have 
flooded into the area and the Ugandan Government, as Mr. Bowers 
said earlier, they have a pretty good handle on how to organize 
that.
    Ms. Bass. Right.
    Mr. Isaacs. But that's drawing resources out of society 
somewhere. It's drawing resources out of the WFP pipeline and 
that's more resources that need to be replenished or it's going 
to create more insecurity somewhere, and there are thousands of 
people coming every day, fleeing Sudan.
    Ms. Bass. So I am thinking of the cuts that have been made 
and also we are doing a resolution tomorrow in full committee 
about the famine.
    But none of it was going to Uganda. You know, that's not 
what we are recommending and I am just wondering if we 
shouldn't include Uganda.
    Mr. Isaacs. So I would say that--I don't know how your 
budgetary process works but if you're considering funds to Food 
for Peace and some of their requests are to help South Sudan 
refugees, a substantial portion of them are in Uganda now.
    So however that funding stream runs. But I think that there 
needs to be consideration made for those refugees to feed them.
    Ms. Bass. Okay. And Mr. Bowers, you mentioned PRIME in 
Ethiopia. Is--and it sounds--I mean, I have read about it in 
your testimony. Is PRIME--does PRIME exist outside of Ethiopia 
or is it just in Ethiopia?
    Mr. Bowers. Well, that particular project was designed for 
arid parts of Ethiopia. But I think the construct is what my 
colleague was saying because it is a Feed the Future program as 
well. It's a 5-year program; over <greek-l>$ deg.50 million 
U.S. dollars were invested.
    Ms. Bass. Where are we in the 5 years?
    Mr. Bowers. We are at the last year. But the proof is 
there. We know the evidence is there to demonstrate, again, 
that sort of metric that Matt Nims mentioned today. A dollar 
spent can actually reduce humanitarian needs by over $2.90.
    So that's a pretty impressive metric, and in an area of the 
world where we know there will be cycles of drought again. So 
the whole point of resiliency, the whole point of sort of a 
systems approach, is looking at the diverse drivers that make 
people more resilient so that they are not dependent on us 
handing out food again.
    Ms. Bass. So what happens? Does it need to go on beyond 5 
years or is 5 years----
    Mr. Bowers. Well, I think we are always looking for 
opportunities to continue to build a momentum where the need 
and the government are both in alignment. And Ethiopia has 
shown itself to be quite progressive in championing these types 
of systems approaches in the region.
    Kenya is getting there as well. I think it's more difficult 
to do in areas in Somalia but not impossible. And then, 
finally, Uganda is another area where we are championing a lot 
of these multi-year programs that are building resiliency in 
the midst of coping with, as Ken mentioned, 800,000 refugees.
    So, you know, these are the signature programs that the USG 
should really be championing in addition to our humanitarian 
accounts because those are critical for saving lives.
    Ms. Bass. I do think it's something that we need to lift up 
in terms of the role African countries have been taking in 
taking in refugees. We often think of the migration out but do 
not acknowledge often that so many refugees are absorbed by 
other countries and they do it in principle, which I think is 
something that----
    Mr. Bowers. I would just quickly add on the fluidity of 
that region, obviously, as many people on the subcommittee 
know, borders there don't really exist in reality and many of 
these societies have cross border trade, cross border realities 
that go beyond.
    Ms. Bass. Yes, but not for 800,000 people.
    Mr. Bowers. So the markets are all cross border there--
religions, ethnic groups. So the fact----
    Ms. Bass. That's because the borders were never real.
    Mr. Bowers. So whatever legislation language you come up 
with, I think acknowledging that cross border dynamic is very 
important.
    Thank you.
    Ms. Bass. So I wanted to ask you, Mr. Maphosa, you 
mentioned that the leaders don't want to call it a crisis and I 
am not sure if you were making reference to say, for example, 
there is a problem in Kenya and it's not really clear whether 
the Kenyan Government is saying that there is a crisis, and I 
am thinking also specifically of Nigeria. So how do we help 
Nigeria if the issue is Boko Haram?
    Mr. Maphosa. So that was in specific reference to South 
Sudan.
    Ms. Bass. Oh, okay. I see.
    Mr. Maphosa. I was noting that when you see them accepting 
that there is a famine, they are not crying wolf anymore. In 
fact----
    Ms. Bass. Oh.
    Mr. Maphosa [continuing]. They may be behind the curve 
because traditionally for them they would not want to be the 
first ones out. You need to push them a little bit more.
    Ms. Bass. I got it. Okay. Thank you very much. Thank you, 
Mr. Chair.
    Mr. Smith. Thank you.
    Mr. Garrett, gentleman from Virginia.
    Mr. Garrett. Thank you, Mr. Chairman.
    I want to credit the ranking member for stealing my 
favorite question. But I do appreciate the follow-up, Mr. 
Isaacs, on your aid workers, that at least it dovetails with 
another question.
    Four extraordinarily effective good organizations 
represented on the panel. How many members of your organization 
have you had abducted? How many are still being held and what 
can be done to help them?
    I know it's beyond the purview of the meeting but I think 
appropriate in light of the testimony.
    Mr. Isaacs. So I can say that we have had people kidnapped 
over the years. I don't know the exact number. We have been 
blessed not to have too many and we have none that are held 
now.
    Mr. Garrett. None currently?
    Mr. Isaacs. Yes.
    Mr. Garrett. Thank you.
    Mr. Maphosa. I would say for us we have been fortunate not 
to have those situations. But the near misses type of 
situations is where we have had to evacuate staff when we 
sensed that there was danger.
    Mr. Garrett. Sure.
    Mr. Bowers. I would just add, usually we don't comment on 
these things publicly because some of these cases may be 
active.
    Mr. Garrett. To the extent that you're not comfortable 
commenting on it I would ask that you reach out to any members 
of the subcommittee with whom you are familiar and comfortable. 
Let us know so that we might be able to help.
    Mr. Bowers. Sure. And we are happy to provide additional 
sort of international data on that. I mean, most of the 
abductions currently are in Syria.
    Mr. Garrett. All right. Well, any number of places and 
sometimes the government actions might not be classified as 
abductions.
    But yes, let somebody know and there are members of this 
subcommittee, Mr. Smith in particular, who have had some 
wonderful success in sort of humanitarian efforts to help folks 
out of bad situations, for lack of a more appropriate term.
    How about Bread for the World? Are you all in the same 
circumstance where----
    Ms. Wabwire. No, actually because we are not a direct 
service agency. Fortunately, we don't have that problem.
    Mr. Garrett. I appreciate that. That's better news than I 
thought I might here. So that's very good.
    Ma'am, you also spoke to the conditions in the refugee 
camps and how, obviously, they are breeding grounds for 
disease, infection, et cetera.
    Can you also speak to the circumstances as it relates to 
exposure to extremism, people who are hopeless and how their 
circumstances in some of these camps might lead them to make 
decisions they might not otherwise make.
    Ms. Wabwire. Absolutely. As I began my remarks, I 
highlighted this report which I will just mention again. And 
the reason I do that is because, as we were preparing--putting 
together this report, we traveled and interviewed lots of 
people--including young men in Somalia, a country that, 
obviously, is severely affected.
    One of the people that presents a story here is a young man 
called Mohamed. He works with the Global Youth Innovation 
Network. This is a group of young Somali men who, in spite of 
all the challenges around them, have committed to try and 
prevent recruitment from happening in their own villages.
    So what Mohamed and his team do is they bring together 
young men whom they know are prone or susceptible to 
influential recruitment by al-Shabaab and plan for a lot of 
livelihood strategies. They've opened businesses with support 
from external partners, to a very large scale, though, have 
helped to build roads and canals--just very impressive 
initiatives.
    And this is really to alleviate opportunities where grounds 
for breeding of such extremists happen.
    Mr. Garrett. So at the risk of sounding like my colleague, 
Mr. Castro, earlier and ending my question with what do you 
think about that, I would sort of soliloquy, Mr. Chairman, that 
you very rarely see young people make decisions that relate to 
transition to extremism where there is an opportunity where 
there is hope.
    And so the work that we are doing here and I think the 
bipartisan commitment to ensure that we continue to do it will 
save lives that we will never be able to quantify because we 
will see fewer people pushed toward extremism, I think.
    And I think that it's hard to--it's hard to do that in 
numbers but what you all do, God bless you and thank you.
    Mr. Chairman, I don't know if this would be an appropriate 
time. I had spoken to you prior to the meeting about some 
information that I have received from the Ambassador to the 
Republic of Sudan that he wished to have read into the record.
    So I will hand that to you now and ask that it be included 
in the record.
    Mr. Smith. Without objection it will be made part of the 
record.
    Mr. Garrett. If I might articulate very briefly, Mr. 
Chairman, I have had some conversations with leadership from 
the Republic of the Sudan on semi-related issues.
    Obviously, the Ambassador is not able to testify at this 
hearing. But they are trying to make it abundantly clear that 
they hope to become better partners, particularly as it relates 
to transportation of assets and resources in the South Sudan by 
virtue of being landlocked and also that they hope to integrate 
themselves better into the region and the world, moving 
forward.
    And I will tell you, Mr. Chairman, for the record that I 
have found them to be engaging and well intentioned, and past 
activities notwithstanding I think worthy of sitting down and 
maybe having some greater discourse moving forward and I thank 
you for your indulgence.
    Mr. Smith. Mr. Garrett, thank you very much and this 
submission from the Ambassador will be made a part of the 
record. So thank you very much for that.
    Ms. Wabwire, you have referenced that summary of 
recommendations. To the extent possible, particularly things 
like the executive summary and some of the recommendations, we 
would like to make that a part of the record.
    So afterwards we would like to go through it and pull out 
some of the most important and salient points to make it part 
of the record.
    Ms. Wabwire. Thank you.
    Mr. Smith. Mr. Suozzi, gentleman from New York.
    Mr. Suozzi. I don't have any questions, Mr. Chairman. I 
just want to thank each of you for your testimony today and for 
your great service that you provide to people. Thank you.
    Mr. Smith. I would like to yield to Mr. Donovan, the 
gentleman from New York.
    Mr. Donovan. Thank you, Chairman.
    I don't know how I am going to get liked more than Tom 
Suozzi right now. That's wonderful.
    I also got a chance to ask some questions earlier and I 
know they are going to call the votes in 5 minutes. So is there 
something else that any of you want to tell us, whether it's to 
understand the issue better, to understand the problems, 
understand the solutions? I offer that up to you until the bell 
rings.
    Mr. Isaacs. If I may bring up one other thing.
    All of the localities and the populations that we have 
talked about today we have not mentioned two people groups. In 
the southern part of the Republic of Sudan--that's the people 
in Nuba Mountains and Southern Blue Nile--and they have been 
totally cut off with no humanitarian access since June 2011 and 
they continue to be cut off today. And this is a population of 
a total of about 1.5 million people.
    So while the words from the Embassy of Sudan are gracious 
and I have no doubt that they maybe have made some progress in 
some areas, there has been no humanitarian access allowed to 
that and that is something that I am very familiar with and I 
would ask that you look into that and pressure them to allow 
access into those areas.
    Mr. Smith. I would add that in the past we have actually 
had hearings that focused on the Nuba Mountains almost 
exclusively because of that lack of humanitarian access.
    So I think your point is extremely well taken and I thank 
you for it. Would anyone else like to add before we close? Any 
comments? Yes.
    Ms. Wabwire. I think I will just close with where I 
started--that in order for us to make an effective response to 
one of the world's largest humanitarian crises we have got to 
protect funding.
    We have got to oppose the proposed cuts and I am really 
encouraged, Mr. Chairman, by your confidence that these are 
going nowhere. That makes me feel a lot more encouraged and 
motivated and especially because this is for some of the most 
vulnerable people around the world.
    This is not for our organizations. This is for mothers and 
fathers who watch very helplessly their children die of things 
that are so solvable like hunger.
    And so just very quickly, a robust U.S. Government response 
is needed urgently. We have got to act fast because millions of 
lives are on the brink of starvation.
    Secondly, please support multilateral assistance including 
World Food Programme and the U.N. Peace Fund, which helps build 
institutions for peace building over a long period of time.
    But at the same time also help to bridge the gap between 
the humanitarian and the long-term development assistance 
because I think that's where we are not making fast enough 
progress.
    And finally, as we respond to the current crisis, let's 
take that long-term view so that hopefully in a few years we 
are talking about a whole different story and how we have made 
a difference. And I thank you all very much for the opportunity 
to testify.
    Mr. Smith. As we close, one of the reasons why we have 
called this hearing was to hear from the experts who have just 
absolutely compelling information that needs to be heard by 
this subcommittee, the Congress, the appropriators, and that's 
why it was scheduled for today.
    And also we wait for a new USAID Administrator and other 
key personnel because personnel is policy. As you know, Mr. 
Isaacs, having served--others too as well--the key is having 
the right person, the right people in those gatekeeper 
positions and a lot of that has not happened yet. So we are not 
flying blind but we don't have the visibility that we should 
have.
    So this hearing and, again, your testimonies become very, 
very, I think, informative and motivating going forward. So I 
want to thank you very, very strongly for that leadership 
because we will take your statements.
    The full record won't be ready, it is never done overnight, 
the Q&A part, but your written testimonies especially it'll get 
very wide distribution. And so I thank you so deeply.
    The hearing is adjourned.
    [Whereupon, at 12:36 p.m., the committee was adjourned.]

                                     
                                    

                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                                 
                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
